<html>
<title> - SURFACE TRANSPORTATION SYSTEM: CHALLENGES FOR THE FUTURE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
        SURFACE TRANSPORTATION SYSTEM: CHALLENGES FOR THE FUTURE 

=======================================================================

                                (110-3)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 24, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

34-775 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
JUANITA MILLENDER-McDONALD,          JERRY MORAN, Kansas
California                           GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
JULIA CARSON, Indiana                JOHN BOOZMAN, Arkansas
TIMOTHY H. BISHOP, New York          SHELLEY MOORE CAPITO, West 
MICHAEL H. MICHAUD, Maine            Virginia
BRIAN HIGGINS, New York              JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
JOHN T. SALAZAR, Colorado            CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      TED POE, Texas
DANIEL LIPINSKI, Illinois            DAVID G. REICHERT, Washington
DORIS O. MATSUI, California          CONNIE MACK, Florida
NICK LAMPSON, Texas                  JOHN R. `RANDY' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                CHARLES W. BOUSTANY, Jr., 
JASON ALTMIRE, Pennsylvania          Louisiana
TIMOTHY J. WALZ, Minnesota           JEAN SCHMIDT, Ohio
HEATH SHULER, North Carolina         CANDICE S. MILLER, Michigan
MICHAEL A. ACURI, New York           THELMA D. DRAKE, Virginia
HARRY E. MITCHELL, Arizona           MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY, Pennsylvania  VERN BUCHANAN, Florida
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California

                                  (ii)



            SUBCOMMITTEE ON HIGHWAYS, TRANSIT AND PIPELINES

                        PETER A. DeFAZIO, Oregon

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
JUANITA MILLENDER-McDONALD,          THOMAS E. PETRI, Wisconsin
California                           HOWARD COBLE, North Carolina
ELLEN O. TAUSCHER, California        RICHARD H. BAKER, Louisiana
TIM HOLDEN, Pennsylvania             GARY G. MILLER, California
MICHAEL E. CAPUANO, Massachusetts    ROBIN HAYES, North Carolina
JULIA CARSON, Indiana                HENRY E. BROWN, Jr., South 
TIMOTHY H. BISHOP, New York          Carolina
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
BRIAN HIGGINS, New York              TODD RUSSELL PLATTS, Pennsylvania
GRACE F. NAPOLITANO, California      JOHN BOOZMAN, Arkansas
MAZIE K. HIRONO, Hawaii              SHELLEY MOORE CAPITO, West 
JASON ALTMIRE, Pennsylvania          Virginia
TIMOTHY J. WALZ, Minnesota           JIM GERLACH, Pennsylvania
HEATH SHULER, North Carolina         MARIO DIAZ-BALART, Florida
MICHAEL A ARCURI, New York           CHARLES W. DENT, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  TED POE, Texas
JERRY MCNERNEY, California           DAVID G. REICHERT, Washington
BOB FILNER, California               CHARLES W. BOUSTANY, Jr., 
ELIJAH E. CUMMINGS, Maryland         Louisiana
BRIAN BAIRD, Washington              JEAN SCHMIDT, Ohio
DANIEL LIPINSKI, Illinois            CANDICE S. MILLER, Michigan
DORIS O. MATSUI, California          THELMA D. DRAKE, Virginia
STEVE COHEN, Tennessee               MARY FALLIN, Oklahoma
ZACHARY T. SPACE, Ohio               VERN BUCHANAN, Florida
BRUCE L. BRALEY, Iowa                JOHN L. MICA, Florida
HARRY E. MITCHELL, Arizona             (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)























                                CONTENTS

                                                                   Page
Summary of Subject Matter........................................    vi

                               TESTIMONY

 Bronzini, Michael S., George Mason University, Dewberry Chair 
  Professor, Fairfax, Virginia...................................    43
 Heminger, Steve, Executive Director, Metropolitan Transportation 
  Commission, Oakland, California................................    34
 Lomax, Timothy J., Texas Transportation Institute, Program 
  Manager, Mobility Analysis, College Station, Texas.............    43
 Pisarski, Alan, Private Consultant, Falls Church, Virginia......    43
 Schenendorf, Jack, Counsel, Covington & Burling LLP, Washington, 
  D.C............................................................    34
 Schwieterman, Joseph P., Professor, DePaul University, Director, 
  Chaddick Institute for Metropolitan Development, Chicago, 
  Illinois.......................................................    43
 Shane, Hon. Jeffrey N., U.S. Department of Transportation, Under 
  Secretary for Policy, Washington, D.C., accompanied by Richard 
  Capka, Administrator, Federal Highway Administration...........     9

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    61
Cummings, Hon. Elijah E., of Maryland............................    91
Lipinski, Hon. Dan, of Illinois..................................   107
Matsui, Hon. Doris O., of California.............................   118
Mitchell, Harry E., of Arizona...................................   120
Rahall, Hon. Nick J., II, of West Virginia.......................   136

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Bronzini, Michael S.............................................    62
 Heminger, Steve.................................................    97
 Lomax, Timothy J................................................   111
 Pisarski, Alan..................................................   123
 Schenendorf, Jack...............................................   137
 Schwieterman, Joseph P..........................................   148
 Shane, Hon. Jeffrey N...........................................   152

                       SUBMISSIONS FOR THE RECORD

 Bronzini, Michael S., George Mason University, Dewberry Chair 
  Professor, Fairfax, Virginia, report, Transportation 
  Information Assests and Impacts: An Assessment of Needs, J.L. 
  Schofer, T. Lomax, T. Palmerlee, and J. Zmud, Transportation 
  Research Circular E-C109, Transportation Research Board, Data 
  and Information Systems Section, December 2006.................    69
Shane, Hon. Jeffrey N., U.S. Department of Transportation, Under 
  Secretary for Policy, Washington, D.C., Older Drivers Driving 
  Older Cars: A Snapshot analysis of the National Household 
  Travel Survey 2001.............................................    18
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        SURFACE TRANSPORTATION SYSTEM: CHALLENGES FOR THE FUTURE

                              ----------                              


                      Wednesday, January 24, 2007

        House of Representatives, Subcommittee on Highways 
            and Transit, Committee on Transportation and 
            Infrastructure, Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2167, Rayburn House Office Building, Hon. Peter A. DeFazio 
[Chairman of the subcommittee] presiding.
    Mr. DeFazio. The hearing of the Subcommittee on Highways 
and Transit will come to order.
    This hearing is on the surface transportation system 
challenges of the future. A couple of preliminaries.
    Just to make a point, which I think is in the grand 
tradition of this committee, I am convening the committee with 
a gavel which was given to me by Speaker Hastert after the 
completion of the SAFETEA-LU on the floor. It was autographed 
by Speaker Hastert and I brought it to make a point that 
transportation and transportation infrastructure are not 
partisan issues. They have not been. They should not be. They 
benefit all of the American people and the economy; and I 
certainly intend to continue in that tradition.
    Beyond that, we are also adopting the Don Young rule--some 
will recall it--and I do not know that Don ever did it, but he 
often threatened to confiscate cell phones that rang during the 
hearing and take them to the men's room where they would 
disappear. So if everyone would please put their BlackBerrys, 
cell phones and others on vibrate, that would be helpful for 
the decorum of the committee.
    Then, beyond that, we are going to have a few brief opening 
statements. I actually did have one here, and I do not know 
where it has disappeared to, but I did it yesterday.
    OK. I certainly want to thank my ranking member--oh--and 
the full committee ranking member, Mr. Mica. Jimmy Duncan and I 
have worked together in Water Resources and Aviation before 
that, so this is not new. I just normally sit to his left, 
which is probably where I more belong, but I am sitting in the 
Chair, and we changed sides, so it did not work out quite that 
way. But he will be a great leader for the Republican side, and 
I look forward to working with him and, certainly, the full 
committee ranking member, John Mica. He and I worked together 
on aviation issues, particularly in the post 9/11 environment, 
and I have always enjoyed a good rapport and relationship with 
John.
    I am pleased to preside over this first hearing today--20 
years in Congress, and I finally get to wield the gavel--but I 
should put it in perspective. I had breakfast with a former 
colleague, Les AuCoin from Oregon, who was on Appropriations. 
He pointed out that if he was still here after 32 years, he 
still would not have a subcommittee gavel on Appropriations. 
So, you know, you need to keep it all in perspective.
    I expect the subcommittee to be very active in the next 2 
years. We are going to do oversight on the implementation of 
SAFETEA-LU, and then we are going to begin the work to build 
the foundations of the next reauthorization. SAFETEA-LU, in my 
opinion, was essentially the last transportation bill of the 
last century, very traditional ways of financing, a pretty 
traditional approach toward what we were funding.
    The next bill will be very different. At this point, we do 
not know exactly how it will all be constructed, but it will be 
something that needs to look toward the future in terms of the 
system and what it will support and what we will construct, and 
we are going to have to look at new ways to pay for those 
needs.
    This past summer, we celebrated the 50th anniversary of the 
Federal Aid Highway Act; and, you know, that was the foundation 
for this interstate system and the transportation 
infrastructure today. It is now time to look toward those next 
50 years.
    I am particularly looking forward today to hearing from the 
witnesses who are members of the National Surface 
Transportation Policy and Revenue Study Commission, which we 
created in SAFETEA-LU. We created the Commission in the hopes 
that we would get that kind of analysis, that they would look 
both at our needs and potential ways of increasing revenues to 
fund it; and we are looking forward to hearing from them. We 
will also hear from some administration witnesses.
    Thanks for everyone's attendance here today; and, with 
that, I will turn to my ranking member, Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman, but I want to go 
first to our ranking member of the full committee, my friend, 
John Mica, for his statement.
    Mr. Mica. Thank you.
    I do not have a formal statement prepared today, 
fortunately, but I want to, first of all, congratulate my 
friend and colleague, Mr. DeFazio, on the assumption on the 
chairmanship of this subcommittee. He is a hard worker, a hard 
charger. He referred to some of the work that was done in post-
9/11. The country owes him a great debt of gratitude for his 
untiring efforts to make certain that in aviation and 
transportation that we are safe and secure. So he is a delight 
to work with. We share one thing in common. We both sometimes 
have a little temper tantrums, but everybody takes us in 
stride, fortunately, Peter, but--------
    Mr. DeFazio. I think it is the Italian heritage.
    Mr. Mica. I think it is. It is something. You know, maybe 
it is in the pasta genes or something. But we do get a little 
excited, and people all take us in stride.
    But I look forward to working with you. Today, I am glad 
you are kicking off today's business with looking at the long 
term; and that is part of our responsibility, is setting that 
long-term policy.
    I was thinking we are a bit, though, addicted to surface 
transportation in the traditional sense in this country; and 
one of the things is, even though it may go beyond the scope of 
the Commission and some of the highway subcommittee 
responsibilities, looking at getting us into the era of mass 
transit, we are woefully inadequate as far as keeping up with 
the rest of the world and moving people in a cost-effective 
manner. Maybe some of our urban areas are better, but we have 
got to look at that.
    I will give you just one quick example in closing.
    We are going to build about 20 miles of interstate through 
metropolitan Orlando. It is not even in my district. It is 
going to give us two lanes more in each direction which have a 
maximum capacity of 4,000 cars per hour. Most of the cars have 
one person in the car. The cost is $2.2 billion, and I can 
build an entire commuter rail system that will handle 12,000 to 
15,000 people per hour for about $600 million, a fraction of 
the cost. We need to be looking at other ways to move people.
    Of course, with surface, we have our challenges, and 
financing these great costs is not part of today's discussion 
but will eventually be part of it, and I look forward to 
hearing from Mr. Shane and the other witnesses you have 
assembled. I look forward to working with you on the challenges 
that we face in surface transportation, moving people cost-
efficiently around our country, and I am pleased to yield back.
    Mr. DeFazio. I thank the gentleman for that.
    Yes, I call that the sort of least-cost transportation 
planning approach, Mr. Mica; and it is something that--we have 
really got to begin to break down some of these stovepipes. I 
mean, that is an excellent example.
    Mrs. Tauscher, I believe, has an opening statement.
    Mrs. Tauscher. Thank you, Mr. Chairman, and congratulations 
on your assumption of the chairmanship.
    I want to thank you again for allowing me to make a brief 
statement.
    Certainly, as you have outlined and as our witnesses will 
outline, our Nation's transportation infrastructure needs are 
not unknown. It is true that the last highway bill put a 
significant down payment on addressing these needs. However, we 
cannot avoid the fact that infrastructure is aging, our economy 
is changing, and highway and transit systems built 50 years ago 
are being used in ways never before contemplated.
    Addressing this challenge will certainly require some 
ingenuity on our part and on the parts of the Department of 
Transportation, the Policy and Revenue Study Commission, the 
State DOTs, and certainly the local MPOs. It is with that in 
mind that I would like to especially welcome to today's hearing 
Mr. Steve Heminger. Steve will join us today on the second 
panel.
    As many of you already know, Steve serves as the Executive 
Director of the Metropolitan Transportation Commission in 
Northern California's Bay Area, where I am from. He also serves 
on the National Service Transportation Policy Revenue Study 
Commission and as an appointee of Speaker Pelosi. Steve's 
experience in the Bay Area will certainly provide the 
Commission and this committee with important insights as to how 
to aggressively and smartly manage, as he does with his MPO, 
the leveraging of Federal, State and local funding sources to 
address issues of congestion capacity and development in one of 
our Nation's most transportation-dependent regions. I am 
looking forward to Steve's testimony today, and I appreciate 
his taking time to come before the subcommittee.
    Again, Mr. Chairman, I thank you and congratulate you for 
assuming this great job. I yield back.
    Mr. DeFazio. I thank the gentlelady. I thank her for being 
so succinct.
    Mr. Duncan.
    Mr. Duncan. Well, thank you very much, Mr. Chairman; and, 
first of all, let me also congratulate you on assuming your 
first chairmanship.
    As you mentioned, I had the privilege of chairing the 
Aviation Subcommittee for 6 years and then the Water Resources 
and Environment Subcommittee for 6 years. You have worked with 
me throughout that time, part of the time as ranking member on 
the Water Resources Subcommittee; and it was always a privilege 
and pleasure to work with you. You and I have already met, and 
I have expressed my hope and desire that we have a very active 
subcommittee for this next 2 years, and I believe we will.
    I served in the minority my first 6 years in the Congress, 
and certainly, my preference is to be in the majority, but your 
side treated me very fairly during those first 6 years. There 
was rapid turnover of chairmanships in that time period, and I 
served under three full committee chairmen in those first 6 
years, but this committee, as you previously mentioned, has a 
history of bipartisanship, and I hope that and believe that we 
will continue that during this Congress.
    I am pleased to begin our subcommittee's work with this 
first hearing, and I am glad that we are aiming high and 
tackling such an important subject. In the 110th Congress, the 
Transportation and Infrastructure Committee will begin to lay 
the groundwork for the reauthorization of the Federal Highway, 
Transit and Highway Safety Programs, all of those that we have 
had in place and those that were last authorized in the 2005 
SAFETEA-LU legislation.
    It is critically important that we understand the needs of 
the Nation's surface transportation systems before we begin to 
write legislation and finding national programs to support that 
system. Over the last 50 years, transportation in this country 
has radically changed, and those changes have not appeared in a 
vacuum. Changes in the national surface transportation system 
have been driven, in part, by the goals and policies put in 
place by Federal, State and local governments.
    In addition, market forces in our ever-changing economy 
have played an important role in the development of our surface 
transportation system. As we try to determine what the national 
surface transportation system will look like over the next 25 
or 50 years, it is clear that the system must respond to the 
needs of the U.S. economy and a society that continues to 
rapidly grow and change.
    One problem with the national surface transportation 
system, a major problem, that we must address is congestion. 
Congestion is choking our economy and degrading our quality of 
life. Congestion costs motorists more than $60 billion a year 
by the most conservative estimate, and the most conservative 
estimates in wasted time and fuel costs the average person in 
this country approximately $800 a year by the lowest estimates.
    Part of the congestion crisis has been caused by the fact 
that infrastructure investment has not kept pace with the needs 
of the transportation system. For example, the total number of 
highway miles grew by only 2 percent between 1980 and 2000. 
Yet, during those same years, the number of passenger car miles 
driven increased by 50 percent, and truck miles increased by 95 
percent. The expected population and freight traffic growth 
over the next few decades will make what is already a terrible 
problem much worse.
    We have to tackle the congestion problem with real 
solutions. As one of our witnesses will say in his testimony 
later this morning, transportation projects are not about 
faster travel; they are about supporting an economy that 
competes in the global marketplace, supports families, 
encourages innovation, and creates options that allow citizens 
to improve their lives. That is what this hearing this morning 
is about, and that is what the work of this subcommittee is 
about.
    Another national trend for which we must be prepared is the 
graying of America. As our population grows in size, the 
average age of our citizens is also increasing. In 50 years, 
the percentage of the population over 65 will almost double, 
and that is an important thing that we need to take into 
consideration.
    I look forward to hearing from all of our distinguished 
witnesses this morning, and I yield back the balance of my 
time.
    Mr. DeFazio. I thank the gentleman for his statement.
    Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair; and I am very, very 
happy to be on this committee, very honored. After 8 years, I 
have made it.
    I represent the 38th District of California, which is a 
major surface transit area and has major problems, specifically 
dealing with one of the major freeways, the Santa Ana freeway, 
the I-5, which is a major transportation corridor from Mexico 
to Canada, and it is very heavily congested in Los Angeles 
County. However, in my area, there is an 18-mile bottleneck of 
three lanes coming in from six lanes from the Orange County 
area into my district. You can get on that freeway any time of 
the day, and you are sitting in traffic. It is used by 25,000 
trucks a day--that is not counting cars, just trucks--on a 
three-lane highway.
    The joint powers authority have been working to expand it. 
Ninety-nine percent of that funding is coming from State, local 
and regional; and it concerns me that there is very little 
Federal support or funding to be able to work on this traffic 
congestion issue in one of the biggest areas of California.
    I would like to, as we move along, try to figure out how 
the Federal Highway Administration and the Department of 
Transportation can provide support for these major regional 
congestion relief projects. Also, California just passed a $20 
billion transportation bond package, and I would like to be 
able to ask the Department of Transportation how they plan to 
supplement that initiative with Federal support to address some 
of the major issues of transportation in California.
    I have also discussed with you separately the grade 
separations. The Los Angeles and Long Beach harbors, next to 
each other, handle over 50 percent of the world's goods through 
train transportation. They come up through Long Beach up into 
Los Angeles, and then they take an eastern route through my 
whole district. There are 38 miles, roughly, 40 some odd, of 
the rail corridor, serving 1.9 million residents in 30 cities; 
and it distributes $314 billion in annual trade through 54 
total grade crossings along what is called the Alameda Corridor 
East.
    The Authority of ACE plans to do 20 grade crossings. Two 
have been completed, eight more are funded, and ten are 
proposed. That is not enough, ladies and gentlemen, because 
most of the transportation problems that we have in my area are 
caused by traffic accidents at the rail crossings.
    We need to look and see how they prioritize, how they can 
help or how we can work with the railroads; and I am already 
working with the Subcommittee Chairwoman, Corrine Brown, over 
the issue of the rail traffic increase in that area, which is 
going to go 10-fold in the next 20 years, they tell me.
    So that is a major issue for me, and I am glad to be here, 
and I thank you for the ability to be able to address this 
committee. I yield back.
    Mr. DeFazio. I thank the gentlelady, and I would now 
recognize Henry Brown.
    Mr. Brown. I thank you, Mr. Chairman; and I also would like 
to extend my congratulations to you and to Ranking Member 
Duncan. I look forward to your leadership as we proceed for the 
next 2 years. I appreciate your holding this hearing this 
morning, and I thank the panelists for their thoughtfulness and 
informative testimony.
    I understand that this hearing is focused on taking the 
long view, perhaps 50 years, into the future, where our surface 
transportation will be and what steps we will need to take to 
get it there, but I want to take the opportunity early on to 
discuss the present.
    Just last week, every member of this subcommittee sent a 
strong message about the challenges facing our current 
transportation system. We wrote Mr. Obey and Mr. Lewis about 
the funding levels we passed into law as part of the Highway 
Bill. As we begin the discussion about the challenges facing us 
in the future, I am hopeful that the major challenges of the 
day will not be far from the minds of the folks assembled here 
today.
    My district depends upon transportation. Tourism is the 
number one economic generator in the 1st District of South 
Carolina; and the work of our ports, moving goods in and out of 
the State, is not far behind. To continue to be strong 
economically in my district, just like the entire Nation, we 
must figure out better, faster, more efficient ways to move 
people and products.
    Indeed, the population challenge is facing our Nation, 
especially the 1st District. It is steadily putting us in a 
situation where we must make these transportation improvements 
simply to stay on a level playing field. It already is becoming 
more difficult.
    Myrtle Beach, in my district, has been one of the top 
tourist destinations on the East Coast for decades, with over 
14 million visitors coming each year. In recent years, it has 
evolved into one of the fastest-growing areas on the coast.
    Highway projects that were designed to meet a certain level 
of demand are hitting their capacity level years in advance. 
The basic two- and four-lane highways are insufficient to meet 
the needs of the community. With the help of this committee, 
South Carolina is making great strides towards the construction 
of Interstate 73, the first interstate access to this growing 
Grand Strand. This is one example of capacity crunch I see in 
my district, but more and more individuals and organizations at 
the national level are recognizing it.
    The Federal Highway Administration estimated freight 
bottlenecks on our Nation's highways has cost upward of $8 
billion a year. While the rail carriers are making historic 
improvements in their infrastructures, studies continue to show 
they still face challenges meeting the needs out there to 
ensure efficient goods movement.
    As South Carolina has met the future so quickly, the State 
and the counties on the coast have been innovative in regards 
to developing innovative ways to meet the financing needs of 
future highway projects.
    We developed the State Infrastructure Bank. In our State, 
local transportation taxes have all been instrumental in 
helping South Carolina achieve many of its major transportation 
goals we have three such counties in my district; two have a 1-
cent sales tax which is dedicated to transportation and one has 
a half-cent sales tax. In addition to there being a new 
interstate for South Carolina, there will also be the first 
project of South Carolina to take advantage of a private-public 
partnership.
    That said, the future of our transportation system must be 
one where there is a commitment from all parties--local, State 
and Federal Governments, planners, users, and industry. Only 
then can the future of our transportation system be assured.
    Mr. Chairman, thank you for calling this important hearing, 
and I look forward to hearing from our witnesses.
    Mr. DeFazio. I thank the gentleman.
    Mr. Arcuri.
    Mr. Arcuri. Thank you, Mr. Chairman.
    I am extremely pleased to serve on this subcommittee under 
your leadership and in the company of my distinguished 
colleagues on both sides of the aisle.
    There are serious challenges facing our communities with 
regard to economic development, and it is necessary that we 
address these challenges by assessing some of the root causes. 
The state of our Nation's roadways and transportation 
infrastructure is deplorable in some regions, and it manifests 
itself quite often in some of the most economically depressed 
areas of the country. Why is that so? Because time and again 
throughout our Nation's history we have seen that the key to 
economic growth is the ability to transport goods and services 
in a quick and efficient manner.
    The logic is simple. The creation of high-quality 
transportation networks in areas with struggling local 
economies will spur increased opportunities for private 
investment and economic development.
    I have firsthand knowledge of what some of these budding 
economies are like. There are many cities in my Upstate New 
York district that have been plagued by lack of substantial 
funding to repair aging roadways, in turn, continue to lack 
economic growth. Even though there are areas of the country 
that may exert greater demands on the system as a whole, it is 
of the utmost importance to not let that need overshadow the 
need for additional investment in other areas.
    I look forward to hearing testimony from the witnesses here 
today, and I thank you.
    I yield back the balance of my time.
    Mr. DeFazio. I thank the gentleman. I thank him for his 
brevity.
    Dr. Boustany.
    Mr. Boustany. Thank you, Mr. Chairman. I will be very 
brief. I am very pleased to be on the subcommittee and to join 
you in this very important work.
    We have critical needs in Louisiana, and I look forward to 
working with you as we go into the future. Specifically, I-49 
South is a project that we have been working on for a number of 
years, and this is something that needs to be completed because 
it is a critical hurricane evacuation route. I mean, this is 
absolutely critical for our State for safety and also for 
commerce; and we also have some ongoing needs with Interstate 
10, which is a very frequently used commercial route. There are 
some major areas that are in dire need of repair, and so I hope 
and look forward to working with you as we go forward on these 
issues.
    Thank you.
    Mr. DeFazio. Thank you.
    Anyone else on the Democratic side?
    OK. We have one more on the Republican side, and that would 
be Ms. Fallin from Oklahoma.
    Ms. Fallin. Thank you, Mr. Chairman and Mr. Duncan.
    It is a great pleasure as a new freshman to be on this 
committee. I know it is a great honor, and there are so many 
members on this committee who have a wealth of knowledge and 
experience. I am looking forward to learning from them.
    I represent the 5th District of Oklahoma, and I have had 
over the past 16 years the opportunity to work in the 
legislature and also as Lieutenant Governor of our State with 
two different governors and with the legislature on various 
highway issues. Of course, highways are very important to our 
State.
    In my district, in the 5th District, we are in the process 
right now of realigning I-40. I know that this committee has 
allocated money in the past to that particular project, which 
is very important to me and our citizens, and, of course, our 
highways in general and their condition. I have to say, in some 
cases, Oklahoma does not rank too well in the condition of our 
highways and of our bridges, but I hope on this committee I 
will be able to hear from the experts, listen to the testimony 
and work with the various members to improve our highway 
structure in our State and, of course, across America. We have 
I-35 and I-40, which we consider to be the crossroads of 
America, coming right through my district.
    I will look forward to hearing the testimony today and 
working with you. Thank you so much for the opportunity to 
serve with you.
    Mr. DeFazio. I thank the gentlelady. Welcome.
    Now we move to the panel.
    The first witness would be--well, I guess you are the 
witness, accompanied by--so the witness will be the Honorable 
Jeffrey Shane, Under Secretary for Policy, accompanied by 
Richard Capka, Administrator of the Federal Highway 
Administration.
    Mr. Shane, we have your testimony. I am sure most members 
have read it and have digested it, and we would be happy to 
have you summarize and make the most cogent points you can.

TESTIMONY OF THE HONORABLE JEFFREY N. SHANE, U.S. DEPARTMENT OF 
 TRANSPORTATION, UNDER SECRETARY FOR POLICY, WASHINGTON, D.C.; 
 ACCOMPANIED BY RICHARD CAPKA, ADMINISTRATOR, FEDERAL HIGHWAY 
                         ADMINISTRATION

    Mr. Shane. Thanks very much, Mr. Chairman.
    It is a delight to be here, and may I just add my voice on 
behalf of Secretary Peters and everybody else at the Department 
in congratulating you on this chairmanship. You have come to 
the head of this very important subcommittee in perhaps one of 
the most important periods in its history as we look forward 
to, as you rightfully said, a very different approach to 
surface transportation as we move into the 21st century.
    I am delighted to be accompanied by our extraordinarily 
capable Federal Highway Administrator, Rick Capka, my friend 
and my colleague. He is not just a potted plant, and I would 
encourage members to address questions to him as the need 
arises. He is here to address your needs.
    You have asked us, Mr. Chairman, to look ahead 50 years to 
examine what kind of economy we will have and what kind of 
surface transportation we are going to need to serve that 
economy. We have been analyzing that for a while. I would not 
call that analysis complete, but I think enough of the work has 
been done for us to at least see the broad outlines of the task 
that lies before us, and we can talk about that this morning.
    Over the next 50 years, we expect the U.S. population to 
rise by 60 percent and GDP to quadruple. We expect both freight 
and passenger transportation to increase by 2 1/2 times over 
the next 50 years. There are going to be changes in our 
requirements for transportation. The U.S. manufacturing base is 
shifting to a high-value, high-tech product kind of economy 
that will require an expedited transportation system that 
relies increasingly on overnight truck and air freight.
    Globalization will continue, of course; and we will rely 
increasingly on our key ports of entry like Los Angeles and 
Long Beach. Landside connections to those ports linked to an 
efficient domestic intermodal rail and truck freight 
transportation system will be essential to keeping the costs of 
those commodities in check and, thus, essential to the very 
health of our national economy.
    On the passenger side, as Ranking Member Duncan explained, 
an aging population will increasingly challenge our 
transportation system. The percentage of the population over 65 
will almost double so that the percentage of VMT--that is 
"vehicle miles traveled"--by older people will grow 
appreciably. We know that drivers in their late 70's have 
triple the fatality rate of drivers of the ages of 30 to 65. 
That is a statistic that we know. We will therefore see a 
serious safety challenge, and a demand for urban transit will 
increase to almost twice the current level by 2050.
    Our dynamic economy results in uneven economic growth in 
different regions. Almost two-thirds of all VMT growth will 
take place in only six States so that, even if we keep up with 
the transportation demand in general, it will be difficult to 
keep up with the demand we experience in these high-growth 
States where demand is growing most rapidly.
    How will we address these transportation requirements? 
Again, as Ranking Member Duncan pointed out, we have seen the 
growth and demand increase far more rapidly than we have seen 
the growth in lanes built and capacity actually added. So we 
can expect that, similarly, although traffic levels will more 
than double between now and 2050, it is likely that lane miles 
will increase by only 10 percent. So it is simply a given that 
raw transportation capacity is not going to keep up with 
transportation demand.
    Congestion already imposes heavy costs on our economy. The 
DOT estimates that the total costs of highway congestion are 
about $170 billion a year. I know that the conventional wisdom 
is it is somewhere north of $60 billion, but we think that 
understates the real cost to productivity and a whole host of 
other factors so that we look at a much larger number. 
Moreover, the costs of congestion have been growing at more 
than double the growth rate of the economy at large so that, by 
2050, they could be over $6 trillion, more than 14 percent of 
GDP, if we do not take effective action now.
    Let me explain what we mean by "effective action".
    First, we need to find ways to use our existing 
transportation system more efficiently. The best approach is a 
multifaceted, comprehensive approach that takes advantage of a 
multiplicity of strategies. In planning the Secretary's 
groundbreaking Congestion Initiative, for example, we have 
emphasized four complimentary strategies: congestion pricing, 
expanded transit capacity, greater use of Intelligent 
Transportation Systems technology, and far more widespread use 
of telecommuting. All of that is amplified in the prepared 
remarks that I have presented.
    So it is clear we can make considerable progress in 
addressing congestion even without building new lane miles, 
but, at the same time, we know that we cannot handle 2-1/2 
times the increase in demand without more capacity. A big 
challenge for us is going to see how we get that capacity 
built, what tools we find, what financing mechanisms we develop 
in order to address the actual need for more infrastructure 
construction as we move forward; and we look forward to working 
with this subcommittee and starting this process now. The 
current authorization does not run out, as we know, until the 
end of 2009, but, by all accounts, we are going to have to 
start working now if we are going to be prepared to meet the 
real needs that we see not just in 2050 but the needs by that 
time.
    Thank you very much, again, Mr. Chairman, for the 
opportunity to appear here today; and we look forward to the 
questions the members may have.
    Mr. DeFazio. I thank you. Thank you for your testimony--
your prepared testimony and the discussion we had yesterday on 
these important issues.
    I will first recognize myself for questions and then move 
on to other members of the panel.
    You know, on the congestion pricing, obviously, depending 
on how it is applied and where it is applied, there is more or 
less controversy surrounding it. I would just ask you about an 
interesting conundrum which applies here locally. If you move 
toward congestion pricing--on the highways here, you know, they 
have the commuter lanes and they have other ways of dealing 
with that, but Metro has also moved to congestion pricing. This 
becomes--you are sending all of these great price signals, but 
the price signals in the end just say you need more. The mass 
transit is overcapacity at rush hour, as is the rest.
    What sort of solutions--and I suspect that, in many areas 
of the country, you would find the same thing. I mean, when we 
built our rail system in Portland, we have so far exceeded the 
projections for usage, it is not yet as crowded as Metro, but, 
as the city grows, we are headed in that direction.
    At some point, I think the question becomes, we have got 
all of the price signals here in the world. We are using 
congestion pricing. Employees do not have flexibility, and if 
their employers do not change their shifts or their commute 
times, then what?
    Mr. Shane. Well, we know we need congestion pricing to 
shave those peaks. It is a tried and true technique. It has 
been used across the transportation system for many years, so 
it is really--it is nothing new. I agree with you. It is not 
going to be sufficient.
    We are using congestion pricing now in many areas on our 
highways, and we are also using it in public transportation as 
a way of encouraging the spreading of the burden. But, as I 
indicated, we do have to have a suite of strategies if 
congestion pricing alone cannot be sufficient; if, in fact, 
employers are not helping to address the issue by staggering 
work hours. There needs to be, I think, a real dialogue within 
the country about the importance of doing that.
    With technology coming on, the nature of the workplace 
itself is changing; and I think, as we look forward to the kind 
of transportation system we are going to have, we need to take 
into account the nature of that changing workplace and how we 
can encourage, perhaps, more of those changes such that we do 
not have everybody coming to work at the same time every day, 
taking with them 4,000 or 5,000 pounds of steel and trying to 
find some place to put it.
    This is a long-standing issue for the country, and no one 
strategy is going to be sufficient. Congestion pricing, I would 
say, is absolutely necessary today, but nobody is suggesting, 
Mr. Chairman, that it is sufficient.
    Mr. DeFazio. OK. Now the growth that you point to, the two-
thirds of VMT growth, is going to be, as we understand, over 
the next 25 years in six States, so the problems of the growth 
is not equitably distributed, so I guess I have a two-part 
question to that.
    If those areas begin to resolve those problems more on 
their own, whether through various other funding mechanisms or 
public-private, whatever, how do we maintain the integration 
and the integrity of the national system in light of those 
pressing local needs? Or, in the alternative, how do we fairly 
address that disproportionate need in selected regions in a 
nationally financed system?
    Mr. Shane. Well, we have all lived with a donor-donee issue 
through the national system for a long time, and there is no 
doubt that the country is going to need to address that in any 
system that we develop going forward, but it is important, I 
think, to recognize again the changing nature of the challenge.
    Back in the '50's when we were beginning to talk about 
having an interstate system, the challenge to the country was 
what I would characterize as "connectivity". We wanted to draw 
the country together and to make it an efficient national 
economy for the first time. The interstate system was an 
extraordinary achievement, and it had to be funded at the 
national level and driven by the national government in the way 
we did. It is one of the great accomplishments in public works 
and humankind. I think none of us challenges that.
    Today, it is not connectivity in that way that is our 
challenge. Today, our challenge is congestion. It is a 
challenge that is experienced far more at the local and State 
and even regional levels. It is not just about the movement of 
people; it is about the movement of goods. We are beginning to 
see the movers of those goods--the shippers, the companies that 
drive our economy and really make the world turn on its axis 
today--coming in to talk to us for the first time in my 
experience in the Department of Transportation--talk to us 
about the efficiency of the transportation system.
    The efficiency of the transportation system is identified 
as a fundamental contributor to our economic health. That is an 
equation that many of us in the transportation sector have 
understood for a long time. I have never seen it understood so 
well in the business community at large as it is today. So we 
do have to recalibrate, I think, in the way we address some of 
these issues; and perhaps, in looking at national solutions, 
"one size fits all" is not going to be necessarily an 
ingredient in the system of the future.
    Mr. DeFazio. I thank the gentleman.
    My time has expired. I recognize gentleman from Florida, 
the full committee ranking member.
    Mr. Mica. I will not take too much time.
    Mr. Shane, you know, I think one of the problems lately, at 
least since I have been in Congress, is we suffer sort of from 
peanut-brain thinking in terms of transportation priorities. We 
do not really have a strategic national transportation plan, do 
we?
    Mr. Shane. Well, I like to think that we do. I do not know 
that we have--------
    Mr. Mica. Do you have a copy of it?
    Mr. Shane. The last big transportation plan that the 
Department produced--and I do have a copy of it--was produced 
in 1991, and an awful lot of what we said in 1991 actually 
applies today. We have not spent a lot of time writing a big 
plan--------
    Mr. Mica. So, basically, our policy, too, has been like we 
cut off the interstate. When did we really stop expanding the 
interstate?
    Staff? Mr. Oberstar, do you know? When did we stop really 
expanding the interstate, Dr. Oberstar, Chairman?
    Mr. Oberstar. Actually, the last 100 miles of construction 
was under way in 1990 and completed in about 1991-1992.
    Mr. Mica. But again, you know, you have got to go back to 
Dwight David Eisenhower. He sent Richard Nixon to Lake George 
in the summer of 1953 to propose an interstate system. At that 
time, I think he got back and checked--the Federal budget was 
about $78 billion. He proposed a half a trillion dollar system, 
and this was a national plan.
    Basically, our interstate is at a standstill. I mean, if 
you drive up 95 and I guess up I-5 in California and on some of 
these other interstates, it is a parking lot. We have not gone 
beyond--we do not have a strategic plan.
    Now I see Mr. Schenendorf, and we have got others here. At 
least we do have a policy in place to create a commission to 
come up with a surface transportation policy, but we need a 
plan, and we need a plan with vision for the future, a 
strategic transportation plan.
    I have been very disappointed in my own administration. 
Nobody has a vision or a plan for the future to deal with 
surface transportation. We have cast in stone, in place, our 
interstate system. Oh, my God, if you talk about alternatives, 
we are knuckle-draggers in the Dark Ages compared to Europe and 
other places. We passed ISTEA Intermodal, but, really, that was 
to stop us from passing in Congress a nonconnecting or a 
nonintermodal system, but we have no big system plan. So I am 
hoping that our commission and the administration and others 
can put together a strategic national plan.
    These States, God bless them. California just passed $20 
billion, but this is going to take concerted national effort 
with a national plan to develop--and again, we are drowning in 
congestion. Anywhere you go, we are drowning in congestion, but 
we do not have a plan to deal with that, whether it is I-95, I-
5, the interstates, rail.
    Rail is just beyond belief. We should be moving. We are 
moving 26 million people on Amtrak for the entire country. Two 
lanes, north/south high-speed lanes, built by the private 
sector in England, now carry 34 million people on the high-
speed system. They are trying to get from 120 to 160 miles an 
hour on average. So we have no plan.
    Don't you think it is time--final question--that we develop 
a new plan or update our 1991 plan?
    Mr. Shane. Well, I do not want to pretend I am against 
having a strategic plan. I guess what I would point out--------
    Mr. Mica. You are against it?
    Mr. Shane. I said I do not want to give you the impression 
I am against it. I think we have one in the Congestion 
Initiative, and that is why I referred to having a suite of 
different strategies.
    No, there is not any argument about the fact that we are 
going to have to do something very big and very different going 
forward. The Chairman has said that. The Commission is working 
on that, and we are all looking forward to the results of that, 
so this is not really an argument between us about that.
    I just do not want the record to reflect an absence of any 
attention to the problem of congestion. The Secretary of 
Transportation is putting the entire Department behind a major, 
multifaceted initiative to address congestion in all of its 
forms, not just on the surface but in the air and in every 
other mode, and what we are looking for is some attention to 
that.
    We, obviously, in the executive branch must work within the 
authorizations and the appropriations that we have from 
Congress, but, within that framework, I believe that we are 
trying to take the ball forward and are doing some interesting 
things, and we look forward to spending more time with the 
subcommittee, talking about those things.
    Mr. Mica. Thank you.
    I yield back, and I look forward to working on "the" plan.
    Mr. DeFazio. Well, I thank the gentleman from Florida.
    Again, I think that is why we have the Commission here 
today, and we will get to them on the next panel. That, in 
part, was the charge in SAFETEA-LU. It was for them to take a 
look at that big picture and the next generation, so to speak, 
of transportation in this country.
    With that, I recognize the gentleman, the full committee 
chairman, Mr. Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman.
    I want to congratulate you on your first hearing as Chair 
of the Surface Subcommittee. Goodness knows, you have prepared 
yourself for many years for this position. And the gavel, the 
gavel which was distributed after the passage of the conference 
report on SAFETEA-LU, I keep that on my desk in the office as a 
reminder. I know that, under your leadership, we are going to 
do good work and good policy inquiry and lay the basis for our 
continuing work on the extension of safety in whatever form or 
whatever name it will have. It will have a very simple name 
when we do the reauthorization, I assure you.
    When I started here 44 years ago as clerk of the 
Subcommittee on Rivers and Harbors, it was called the "Highway 
Bill". It passed the House on voice vote. No one asked for 
recorded votes. Now we have recorded votes on the least little 
hangnail amendment that comes to the House floor or in 
committee.
    In those days, there was great consensus. This was, you 
know, the rebuilding of America. This was the great post World 
War II legacy of Eisenhower and the World War II generation of 
Americans.
    Mr. Mica asked a question about the completion of the 
interstate.
    In 1944, when Roosevelt could see the end of the war 
coming, he asked Congress for an appropriation of about $50,000 
to study post World War II transportation needs. That study 
recommended an interconnected system of highways, divided, 
access controlled highways, for America, 44,000 miles. But in 
the rush to rebuild America and to reintegrate the 16 million 
returning veterans after World War II, the first priority was 
to pass the GI Bill. Others were to civilianize the wartime 
economy.
    There was a huge buildup of savings, the highest savings 
rate we have had in the history of this country, all pent-up 
demand to put America back to work and to reeducate or complete 
the education of our veterans, to build the housing. But by 
1952-1953, our highways were congested, people were buying cars 
in greater numbers than ever before, fatalities were rising. 
The prediction was, if we did not do something about it, we 
would be killing 100,000 people a year on America's highways; 
and we needed a new highway system.
    The 1944 study was resurrected. General Eisenhower--
President Eisenhower, to his great credit, commissioned General 
Clay to head that commission and make a recommendation; and 
they updated the study and proposed the National System of 
Interstate and Defense Highways. You could pass anything in 
those days in the name of defense. Just add it to education, 
the National Defense Education Act, the National System of 
Interstate and Defense Highways, and a whole host of other 
things. So it was launched with a goal of 42,500 miles at a 
cost of $22.5 billion.
    It has taken 46,000 miles and $114 billion in Federal funds 
on the 90/10 basis with States contributing the balance, but 
now we are in the post interstate era, and as Secretary Shane 
said, our challenge is not just connectivity--we have that. We 
have the connectivity--our challenge is to maintain the 
mobility of this system.
    I just came from a meeting of the U.S. Conference of 
Mayors. Every one of them is fired up about reducing 
congestion, improving mobility, improving the connectivity of 
America's cities; and I quoted Lewis Mumford, who was, in my 
mind, a philosopher of urban America, who said, "The city is 
the crossroads of civilization. The city is the place where the 
great issues of society are joined. The city is the great 
intermodalist." And you, Mr. Shane, are our intermodalist at 
the Department.
    As Chairman DeFazio said, this set of hearings is the start 
on our responsibility to assure that the policies that we have 
now in place and those that will follow on will maintain 
America's mobility, improve that mobility, improve our 
productivity, continue to lower the cost of logistics, which is 
the cost of moving people and goods.
    In 1987, logistics consumed 17 percent of our gross 
domestic product, but because of the work that this committee 
has done in our ports, our waterways, our inland navigation 
system, our airways, our Coast Guard system, and our highways 
and our bridges and our transit systems, the cost of logistics 
was down to 9 percent. That is an $800 billion gain in an $11 
trillion economy.
    Our challenge and the Commission's challenge is to keep 
that cost going down, mobility going up and keep America the 
most productive economy and the most mobile society in the 
world.
    Thank you very much. Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the chairman for his observations.
    I do not think, Mr. Shane, it is fairly directive. I think 
there is room for agreement. I will not ask for a response.
    I will turn now to the Republican side and recognize Mr. 
Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    You know, when we talk about completion of the interstate 
highway system, one of the key things about this subcommittee 
is that the interstate system has never been completed. We 
always will need to expand and improve what we have, and that 
is one of the main things this subcommittee is about.
    For instance, you know, I mentioned in this subcommittee 
before that I remember when the first interstates were put into 
Knoxville in the mid-1960's. They were two lanes, and for 
several years we did not have any delays or traffic jams. That 
was primarily because, when I was growing up, most families had 
one car. Some families had two cars, but almost no families had 
more than two cars. Now you have the mother, the father and 
both the teenagers who have cars. Sometimes they have a fifth 
vehicle. There are just so many more vehicles on the roads 
today.
    So our interstate system in Knoxville went to three lanes 
and just massive traffic jams, and now we have just added five 
lanes or we have added two more lanes so we are five lanes now, 
and we really have seen great improvement from that. But, like 
Ms. Fallin, I-40 comes through Knoxville, and I-75 runs down 
through Knoxville and then we have a third interstate that 
comes just outside of Knoxville, I-81 and we have over 9 
million visitors to the Smokies and millions more coming 
through to and from Florida and other places, and so the 
traffic--sometimes I have faced worse traffic in Knoxville than 
I have here in Washington, and many of these other members have 
seen that. Sometimes our traffic problems far exceed the 
population of some of the areas.
    I have got just two quick questions, and I will get them 
both out of the way at the same time, Mr. Shane.
    First of all, I would like to know--you have got the 
Secretary's Congestion Initiative, and you have also got 
another program called the Corridors of the Future. Can you 
tell me what specific plans or programs have come out of those 
two initiatives and have they been accepted well by the State 
Departments of Transportation?
    And then a totally unrelated question. You mentioned that 
the number of deaths of drivers over 65 has tripled in recent 
years, but just yesterday, in the Washington Post, there were 
some statistics from NHTSA showing that the 16- to 20-aged 
drivers had 1,330 crashes per 10,000 drivers and those over 74 
had the safest record of any age group. They had 250 crashes 
per 10,000.
    So is there some misunderstanding? Is there some 
discrimination going on against older drivers, who, by those 
statistics, are the safest drivers that we have?
    Mr. Shane. Thank you, Mr. Duncan.
    Let me address the Congestion Initiative and Corridors for 
the Future first.
    The Congestion Initiative, as we have outlined, actually 
involves six separate strategies, one of which is the Corridors 
of the Future Program. So it is a subset, if you would like, of 
the Congestion Initiative overall.
    In addition to the Corridors of the Future thing, we do 
have a program for relieving urban congestion through the 
creation of urban partnerships of which we are reaching out to 
communities all around the country to develop. There is 
tremendous interest in that. We do want to unleash to a greater 
extent private sector resources that we know are available for 
infrastructure now. We are promoting technology as another tool 
to be used against the scourge of congestion. We want to 
address major freight bottlenecks. We are also accelerating our 
focus on aviation capacity. That is, perhaps, a little far 
afield from the subject matter that we are discussing this 
morning.
    On the Corridors of the Future Program, what we have done 
is we have asked for applications from communities or States or 
regions who wish to be considered as part of a Corridors of the 
Future Program through a notice; and the Federal Registry has 
received, as I recall, 38 responses to that. We are now going 
through a second-phase screening through which we will whittle 
down the number to a number that we can actually accommodate 
with the resources that are available.
    The idea, really, is to address problems like those which 
Congresswoman Napolitano was speaking about. We just have a 
huge challenge in trying to move goods into the country, to 
move people through major corridors. It is not strictly a local 
problem any longer. We have to see the transportation challenge 
in all of its dimensions, and the Corridors of the Future 
Program is designed to tackle these issues in what we think is 
a fresh and more appropriate way. It is a toe in the water of a 
different approach, and we are hoping that we will learn from 
it and that that experience will inform the reauthorization 
process as it goes forward.
    On the statistics regarding elderly drivers, I do not know 
what I can say to you about the difference in the statistics 
that you have and the ones that I have. What I was talking 
about was the rate of fatalities, that is to say, fatalities 
per 100,000 or 100 million passenger miles. Our statistics show 
us that the drivers that are above a certain age--it looks like 
85 plus, according to a chart which Rick Capka has just put 
before me. The number is 12 driver fatalities per million 
vehicle miles traveled in the age 85 and above category. Well, 
we will put this chart in the record.
    [The information follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shane. It is a small fraction of that, and it drops off 
very dramatically as you move to younger age groups, even 
groups that are in their 70's and early 80's. So we will try to 
validate those statutes.
    Our information is that it is just a fact of life that, for 
whatever reason, elderly drivers have a greater fatality 
record. I am not talking about the number of crashes, mishaps. 
You have a greater fatality record; and, therefore, as the 
population ages, it is reasonable to think that we are going to 
have to address that in a more direct way than we have.
    Mr. Oberstar. Would the gentleman yield? Would the ranking 
member yield?
    Mr. Shane, those numbers are right, but recent 
information--that is, just within the last month from the 
Centers for Disease Control--shows that a higher number of 
fatalities among older persons--that is 80 and above--is 
because of the frailty, not because they were at fault as 
drivers but because of the frailty of the person of an advanced 
age, and you ought to look at those statistics. You also ought 
to review the two-volume study on the older driver done by the 
Center for Transportation, a study by the University of 
Minnesota, which has some interesting data.
    Mr. DeFazio. OK. I thank the gentleman. Thanks for that 
clarification.
    Mrs. Tauscher, do you have questions?
    Mrs. Tauscher. I do, Mr. Chairman. Thank you.
    Under Secretary Shane and Administrator Capka, thank you 
for being here.
    My area, the Bay Area, is not only a beautiful place to 
live, but we have, obviously, fabulous congestion problems that 
are well-noted, and I am a big fan of Intelligent 
Transportation Systems, ITS. I actually think that the name 
should be "I4TS" because it not only has to be intelligent, but 
it has to be intermodal, it has to be invested, and it has to 
be instinctively put into people's frame of reference. People 
have to know that it costs a lot of money to invest in these 
things.
    As the chairman so wisely stated, logistics for 
transportation funds have come down dramatically because we 
have infused--I do not want to call the highway systems dumb 
but, basically, brick and mortar systems with the capacity to 
have these intelligent systems that tell people, "Do not go on 
that highway, take this one, this is what time the bus is 
coming to get to the BART station," things that really enable 
people to make wise decisions so that they are good consumers 
of transportation, move themselves faster, which is even 
better.
    And obviously, it has a big leap in providing our abilities 
to move goods in an efficient, cost-effective way. But these 
systems are expensive, and they do not necessarily penetrate 
the average driver as something that is aiding their 
development to move faster and so there is a conundrum that 
local MPOs, and I think the country and DOT has in really 
putting it forward, and my question really is, do you think 
that there is something that we can do, the administration and 
the Congress, to provide incentives to transportation agencies 
to implement ITF technologies? And is there more a robust 
separate pot of funds that we can be using to kind of incent 
folks, which is the fourth, incent, incent folks to begin to 
embrace these technologies and take booklet forms that are a 
little older and a little dumber and really and move them up 
the food chain intellectually so that you can then have people 
get the best bang out of their buck and the most use out of 
them.
    Mr. Shane. Thank you, Congresswoman Tauscher. It is a great 
question. We have invested billions of dollars in ITS research 
at the Federal level, and I suspect there is a lot of other 
money that has gone into it as well, and I won't pretend that I 
am not disappointed at the rate which we have deployed the 
results of that research. It is one of the things that we feel 
we have really got to focus our attention on. Congress, a 
couple of years ago, in response to Secretary Mineta's request 
created research and innovative technology within the 
Department of Transportation. I think that is a profound change 
for the Department of Transportation and will be reflected in 
the profound change in the way DOT attacks some of these issues 
in the future. The ITS program has been housed in the Federal 
highway administration, and it moved along subject to 
governance by ITS management council. I sat on that. Rick sits 
on that. Again, we weren't seeing the deployment. We weren't 
seeing really results being exploited for the benefit of the 
public. Secretary Peters has just moved the ITS program into 
RITA, the Research and Innovative Technology Administration, 
where it will be the focus of a culture that is about applying 
technology solutions to the problems that we experience.
    As part of the congestion initiative that we talked about, 
we are citing ITS in particular. We have found some ICT 
earmarked money that wasn't obligated, and we have applied $25 
million of that money. I hope we won't get into trouble for 
using unearmarked funds but 25--------
    Mr. DeFazio. The appropriators will know.
    Mr. Shane. To, particularly to ITF. More than that, it is 
not a glib answer. I guess we are in violent agreement about 
the importance of applying ITS solutions to these problems. We 
can increase the flow of traffic in so many areas so 
effectively to things just like managing the traffic lights, 
things like that. Managing the flow of emergency traffic when 
necessary. These are being tried out within the country. I have 
seen them. It is just astonishing the results you get from a 
relatively minor investment without having to build an enormous 
new infrastructure, and why it is not more ubiquitous is 
something that continues to baffle all of us, and we would love 
to work with the subcommittee in making that happen.
    Mrs. Tauscher. I think the integrated piece of this is a 
good news story that is not really out there. I think people 
have to be incented to do it, and I think that perhaps a robust 
pot of money directed towards this kind of investment is really 
what we need to do. I look forward to working with you.
    Thank you.
    Mr. DeFazio. I thank the gentlewoman.
    Mr. Coble.
    Mr. Coble. Thank you. I was at a Judiciary meeting. I 
missed a good part of your opening statement so it is good to 
have you here. One of the issues that plagued me is vehicular 
congestion. I think vehicular congestion, it negatively impacts 
productivity. It results in excessive consumption of gasoline, 
and I think the best way to combat it is sound highway 
construction, the use of carpooling, public transportation, 
rail and bus. I gave a dedicatory speech back home when our new 
depot was dedicated, Mr. Chairman, and I had 275 people there. 
I urged them, if they did not need their automobiles in their 
daily work, to carpool, use public transportation. After that 
meeting adjourned, one man came to me said, "I never thought 
about it before. I am going to start using public 
transportation." so I had one convert out of 275. Billy Graham 
does a lot better than that. But at least I think we are--we 
Americans are addicted to the use of our automobiles whether we 
need it or not. So I would like to hear from you about that 
issue, Mr. Shane. And also and perhaps you might consolidate 
these. What is the future of the interstate system, and what is 
the future for financing the transportation system?
    Mr. Shane. Thank you, Congressman Coble.
    On the question of transit, I think Congress made a very 
important change in our transit program as part of SAFETEA-LU 
in allocating the highway transit--highway trust fund moneys 
that are allocated to the trust found account to specific 
activities within the Federal Transit Administration and using 
General Fund moneys for other specific activities. So we don't 
have sort of the crossing of the line that we did that ended up 
spending down the available funds faster than they were 
available. We also have more money available now as a result of 
SAFETEA-LU than we did before. Such that worries that we had 
about highway trust funds, highway accounts don't necessarily 
spill over into our concerns about the transit account.
    We think the transit account is likely to be solved longer 
than the highway account. What we really need to do is find 
ways of providing incentives to people to use transit more 
effectively. The use of congestion pricing on highways, which 
we think about as a means of calibrating demand on the highway, 
actually is a way of providing an incentive to use transit. 
Those people who wish not to pay a congestion charge might be 
directed to transit as a way of avoiding it. As the chairman 
pointed out, of course, we also use congestion pricing in 
transit. So perhaps if there is no escape, if you are living in 
a congested area, that is just the cost of living in an area 
where you can be as productive as you can in our major cities. 
The fact is, though, the congestion pricing on highways is a 
way of moving people to transit in greater numbers. You have to 
provide those facilities, naturally, or else there would be 
nothing to move to.
    The larger question about how we fund transportation going 
forward is of course a big question before the government right 
now. It is what we are looking forward to working with this 
subcommittee, working with the commission as it reaches its 
conclusions. There is no doubt that traditional models for 
financing our transportation system, literally our surface 
transportation system, are not sustainable for the future. We 
know that. We have used taxes as a way of financing our system. 
When you use taxes as a way of financing the system, it is a 
given that you are going to have political difficulty expanding 
that sort of financing. It doesn't have to be about philosophy. 
It is just a difficult thing for people to embrace. So we are 
going to have to find different ways of financing the system.
    The private sector has enormous pools of capital available. 
There is controversy about that. We have other kinds of user 
fees that we might begin to develop. Technology gives us tools 
that we never had before in terms of calibrating the use and 
charging people for what they actually do with the system. All 
of those issues are going to be before this subcommittee and 
before the administration as we move into the next authorizing 
process, and it is time to do that. It is going to be a very 
interesting conversation.
    Mr. Coble. Thank you, Mr. Shane. I think my time is about 
to expire. I yield back.
    Mr. DeFazio. Ms. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman. One of the things 
that I am listening to, and I totally agree with Congressman 
Mica, on the focus of the areas where we need to be ensuring 
that we do not have gridlock whether it is New York, Los 
Angeles, Washington, for the movement of goods and people. Back 
in the time when Los Angeles had the Olympics, the State 
Department of Transportation and others came to the business I 
happened to be working for, Ford Motor Company, and they agreed 
to do nighttime delivery of trucks. That worked so effectively 
that to this day Ford still is doing it.
    Now, that is one of the many solutions, if I could put it 
that way, to be able to get some of the trucks off the road, 
and of course, I live in an area where there are over 11 
million people. So it isn't just the transportation grid, the 
congestion. It is the pollution and the effect on the people 
that live around the cities where most of the traffic is 
congested. When you sit on a freeway or you sit in the rail 
yards or when you sit on the ports, all that emission gets 
blown into the cities, and it causes a lot of other side costs 
to the people in terms of health. So that to me would be one of 
the other things.
    I haven't heard anybody begin to talk about other than just 
appealing to the many factors to the people who utilize a lot 
of the services in those big areas. And in Los Angeles, as you 
know, we don't have mass transit. You have it in major cities 
but nothing in L.A. That moves the masses. MTA went in and 
started on the bus system. Well, buses also get gridlocked, and 
it can only carry so many passengers.
    So it is somewhere along the line, I think, not only do we 
need to come to you and require some of your planning, include 
the possibility of future mass transit in those areas where it 
is key to be able to handle the future growth, which will come, 
and of course in The Alameda Quarter, the fact that it is going 
to grow exponentially by the year 2020, I understand, where 
there will be a train every 6 minutes going through my district 
causing another backup of people waiting for those trains to go 
by, and you have emissions that affect the people's health in 
those areas.
    And then, of course, one of the other things that I haven't 
heard is how you are going to begin to look at utilizing media 
to inform and educate the public to get out of the cars and use 
mass transit or how it affects their children's health or the 
seniors' health or how we can save time, money, health and all 
of the other stuff about how the effect on the general public 
is. And I can understand some of the smart technology systems 
that are being talked about, but I can tell you, in my area, 
MAGLA would be out of their reach. You will not have people 
going and utilizing those systems.
    Thank you, Mr. Chair. I yield back.
    Mr. DeFazio. Any response.
    Mr. Shane. I didn't hear a question mark.
    I think, again, I don't disagree with anything you have 
said, Congresswoman. I do think we have to--first of all, about 
the environment. Your area is vital to the economy of the 
Nation as a whole, and I think people in southern California 
specifically around the port complexes are paying a huge price 
for the contribution that they are making to the national 
economy because of the volume of trade that moves through that 
complex. It is true of other ports as well, but nobody is 
experiencing anything like what they are experiencing in that 
region. I have seen stunning presentations just on the 
epidemiology of that area. And it is something that--and 
California on the one hand is on the cutting edge of moving 
trade but, on the other hand, is on the cutting edge of trying 
to address these issues. So very strange regulations have been 
established at the State level and local level for ensuring 
that ships are not idling their diesel engines while waiting 
for berth at one of the ports. That they use equipment that is 
environmentally friendly.
    I worry about the truck movements through the area. We have 
actually shaved the peak through the peer pass process, that is 
to say again, congestion pricing at the ports of L.A. And Long 
Beach, which have the effect of using those port facilities 24 
hours a day. That is a great thing in terms of using assets 
more efficiently. Not such a great thing if you happen to be 
living in a neighborhood that those trucks are going through.
    So there are really two sides of this very important coin, 
and I don't think we get to make any progress in addressing 
gridlock or bottlenecks or throughputs if we can't address the 
environmental and health issues that arise at the same time. 
Those have got to be forefront really and squarely in front of 
our attention.
    Mrs. Napolitano. Thank you.
    Mr. DeFazio. I thank the gentlelady.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    Mr. Shane, I appreciate this dialogue. I guess we have some 
concerns and also some questions about what the next step is 
going to be. I know the chairman of the full committee 
mentioned about how, in 1954, when he mentioned when he put 
together the interstate plan, and we stopped it back in 1991 in 
my district. I was particularly concerned about, you know, the 
corridors in this study that you are actually dealing with the 
cities now, who is going to be included in that? I don't know 
what criteria you are using in this, but I listen to my good 
friends from California and their concern about the traffic 
generated by the ports. And you know that, as we speak, the 
Panama Canal is in the process of expanding. So that is going 
to cause, I guess, a lot of the traffic that goes through the 
west coast will be going through the canal and coming to the 
east coast.
    I represent two ports in South Carolina, so they are going 
to be impacted. And I mentioned in my opening statement, we 
have got 14 million tourists coming through Myrtle Beach 
without an interstate connection. We do have I-73 that is part 
of ending that problem. I would certainly hope that that would 
be one of those charter legs that you are all talking about 
dealing with. So if you could kind of give me a little bit of 
update of exactly how you propose to, I guess, benchmark this 
new study.
    Mr. Shane. I do not know. I was checking with Administrator 
Capka as to whether or not, if we actually received the 
application for the Corridors of the Future program from the 
ports. We don't know the answer to that. What I would like to 
do is perhaps get that for the record. The criteria that we 
apply have been laid out in Federal register notice, and we can 
supply that for the record, too, but more importantly, we will 
be delighted to come back and see you, Congressman, and talk 
about those things and specifically in greater detail than we 
have here.
    Mr. Brown. I certainly would like to be updated on the 
progress of that study.
    Mr. DeFazio. I thank the gentleman.
    Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chairman. I was also, like Mr. 
Coble, at the Judiciary meeting. I know Mr. Oberstar talked to 
you about the safety challenges that you mentioned in your 
speech. We will face safety. I know for younger folks we have 
graduated drivers licenses and the death rates of young folks--
do you have any proposals on reducing the fatalities in the 
aging populations or perhaps a study that you suggest we look 
into?
    Mr. Shane. I suspect that NHTSA, the National Highway 
Traffic Administration, has done those studies. I do have--I do 
not have that information at my fingertips. I would like to 
provide that after the fact.
    Mr. Cohen. I suspect that will be difficult, but testing 
for folks over age, is that a factor, do you think?
    Mr. Shane. I know that, at the State level, there are a lot 
of programs that do ratchet up the criteria that are applied to 
the population as it ages, and let me just say that when I talk 
about this issue, it is not in any way to cast an aspersion on 
the aging population. I am not suggesting that they are not 
more careful. I suspect they are probably better drivers, all 
things considered. I was talking about the fatality rate. They 
simply, as statistics and Chairman Oberstar has indicated, 
there is just a higher fatality rate among that group of people 
simply because they are as old as they are. That is the nature 
of the problem. So we do have to address it, and I don't have 
any very glib answers for how we address it right here this 
morning. What I was simply pointing out in my testimony as we 
address these problems in the future, that is going to be a new 
dimension for us. The number of aged drivers will be much 
higher.
    Mr. Cohen. More mature drivers.
    Have you all done these studies on speed limits on 
interstates? And at one time, I think when we were all 55 or 60 
and we got to 70, and it didn't really seem to affect the 
fatality rate. Is the 75 all right?
    Mr. Shane. I think the geometrics of the interstates are 
designed to particular speeds, and I will defer to 
Administrator Capka in terms of what those engineering metrics 
are. The 55-mile-an-hour limit was not a safety initiative. It 
was under President Carter, as I recall. And we didn't notice 
any--I don't think we saw a dramatic change in the safety 
statistics once we changed to the rated speeds.
    Mr. Capka. I also can add a little bit to that. Certainly 
the effect of speed on crashes and fatalities is known.
    I can't answer specifically how the rates adjust as we 
incrementally move from 55 to 65 to 75. What we have seen over 
the past year, I mean, just looking at some of the fatalities 
statistics is that there are two areas where the fatalities 
have been increasing to the point where our national rate as 
well as the total number of fatalities increased last year. 
Motorcycles and pedestrian incidents have pushed the numbers 
up. So it is a rather complicated issue to read through all of 
the statistics. Certainly as the vehicles become safer and we 
have additional improvements on the infrastructure, there will 
be some adjustments in what we see in terms of crashes and 
speed. But I think no one would argue that as the speed 
increases, the potential for fatalities and crashes and 
aggressive driving also increase.
    Mr. Cohen. Well, we increased our speed limit in Tennessee 
to 70. We didn't have any increase in fatalities. The problem 
is either the slower drivers, the mix of drivers, some going 60 
and some people wanting to get to 70 and then getting to what 
people want to do was 70, you have less fatalities. So 
sometimes you have to have law follow your human engineering, 
and you end up with a better result.
    Mr. Capka. You are correct. When you have a remarkable 
difference in the driving speeds on the same highway, you are 
going to get that differential effect, and we have seen the 
crashes in that kind of situation.
    Mr. Cohen. Thank you. I yield the balance of my seconds, 
Mr. Chairman.
    Mr. DeFazio. Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    I represent southeast Texas where Hurricane Rita hit last 
year. It was the largest evacuation in U.S. history with 2 
million people disbursed. Most of them have found their way 
back to southeast Texas, but most of them have come back. Most 
of them. One of the things I want to talk to you about, the 
NAFTA superhighway that goes from Laredo and Canada through the 
middle of the country taking Highway 35 through this side of 
it, 10 lanes, 12 lanes, however many it is. And what is the 
administration's position on the NAFTA super highway? Then I 
have a follow-up question.
    Mr. Shane. I keep hearing about the NAFTA superhighway, 
Congressman, but I have never had a meeting about it. I have 
never had anybody discuss it with me. I am not even sure it 
exists. I don't even know what is referred to as the NAFTA 
superhighway.
    Mr. Poe. Are you familiar with the trans-Texas corridor 
where the Spanish are going to build a toll road? Texas is not 
going to stop them against Oklahoma, and it is supposed to keep 
going north. Is that part of the NAFTA superhighway, or is this 
a different project completely?
    Mr. Shane. The trans-Texas highway is a project that we are 
interested in. It is one of the cutting-edge projects that we 
have seen around the country. We are looking at that as part of 
the highway system. It is not driven, as far as I am aware, not 
at the Federal level by any reference, to NAFTA. We do intend 
to try to integrate North America to the greatest extent. The 
President has talked about it. We have NAFTA. It is a North 
American Free Trade Agreement. We expect real economic benefits 
to flow from that. There is no question there is going to have 
to be a transportation component to that. But that is not to 
subject that we have this grand plan for a highway that is 
going to traverse the United States for that purpose.
    Mr. Poe. Is there any plan, then, under the NAFTA concept 
to have some type of road for NAFTA and KAFTA or whatever? I 
mean, you said you haven't had any needs. Is there any plan at 
all?
    Mr. Shane. I am not aware of any plan to establish a 
highway or a highway system expressly in connection with cross-
border trade. No, sir.
    Mr. Poe. I am sure you have heard of this NAFTA highway?
    Mr. Shane. I have heard the term.
    Mr. Poe. Is it just a myth, or is it something that 
conspiracy theorists are throwing around, or do you know?
    Mr. Shane. My own experience is it is an urban legend.
    Mr. Poe. That is all I have.
    Mr. DeFazio. Just to follow up. There are some substantial 
plans for a major transportation route which would happen to go 
to Mexico which would come up through Texas. I understand 
Indiana's thinking of building a segment now, which I guess 
would be near the northern terminus of it. It may not be called 
the NAFTA Highway, but the transportation route is being 
planned by the States who seem to be somehow coordinating these 
efforts. I just--Mr. Poe, I thought you raised an interesting 
point, and I don't think it is exactly an urban myth, but it 
may be an issue of semantics or independent of who is 
organizing it.
    Mr. Capka. I think you are referring to I-69, which is an 
interstate highway regionally coordinated and state-to-state 
coordinated, and we are certainly very interested in how that 
is being worked. And it is run from Texas and up through States 
through Indiana and eventually link up, of course, in Michigan. 
And it is designed to move traffic in that corridor more 
respectively.
    It wasn't designed specifically to support NAFTA. And so 
maybe there is some semantics with respect to that. But there 
is a coordinated effort on I-99.
    Mr. DeFazio. The point, on Mexico on one end, so I think 
that gives some substance to where Mr. Poe was raising the 
question. And I understand there is also a lot which would be 
beyond the jurisdiction of your department, but we have heard 
from Homeland Security how Customs might or might not be 
conducted on vehicles traveling that route and where they might 
be conducted. I think it is a bit more than an urban myth. 
There is some reality here, but there is a question of the 
actual coordination intent.
    Sorry to interrupt.
    With that, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    I represent an area in western New York which includes the 
City of Buffalo, and Buffalo is an old industrial area, and I 
think there are some unique surface transportation needs in the 
northeast because a lot of the problems relative to economic 
development to places like Buffalo experience is because of 
old, aging infrastructure. And that poses a unique challenge to 
the Federal and State governments because often times you have 
to dismantle before you can rebuild, and the role of the 
Federal Government is very clear here. It goes back to Lincoln, 
who talked about modern infrastructure in terms of land 
improvements. He believed that building bridges and 
constructing railroads were fundamental to the obligation of 
the Federal Government. Not as a portion, not as earmarks, but 
as sound investments in promoting and creating the conditions 
that make older urban areas like Buffalo attractive places for 
private sector investment.
    Buffalo a hundred years ago was the eighth largest economy 
in the entire Nation, among the strongest and most diverse 
economies in the entire world. We were a major port of 
midshipment. Today it is measured by population loss and job 
loss. Buffalo is the weakest economy in the entire State of New 
York and among the weakest economies in the entire Nation. 
Fundamental to revitalizing these economies, you can't do it 
unless you address the elemental issue of transportation 
infrastructure. And I want to emphasize that in standing up for 
my community but also as a member of this committee, the 
chairman of the Transportation Committee, chairman Oberstar, 
was in Buffalo. He understood fundamentally the importance of 
this, and I would like to hear from you relative to it as well.
    Thank you.
    Mr. Shane. Thank you, Congressman.
    We agree with you. Nobody is, believe me, suggesting that 
the government does not have a very important role to play in 
the provision of basic transportation infrastructure. That is a 
fundamental implement of our policy, and that will continue 
well through the next authorization and beyond.
    You are correct in citing the very special issues that 
exist where infrastructure is in fact aging or more mature, I 
should say. And we have to--we have to ensure as we move into 
our next authorization that if we have not--if we have not 
embraced the very special nature of that problem in the 
programs that we have, if we need some legislative fix that 
will provide the incentives to address aging infrastructure 
more directly, that we include that in the legislation. We 
would be very pleased to work with the subcommittee and work 
with you personally on ideas that you may have for improving 
the programs that we have. It is undoubtedly a special need 
that isn't separately addressed, as far as I am aware.
    I don't know, Rick, if you would know of any specific 
provisions.
    Mr. Capka. I have no specific provisions. We work through, 
of course, the New York State DOT, and of course, they are 
responsible for executing their highway program, and we 
certainly provide a good number of Federal dollars and along 
those lines. But they prioritize the work when and where it 
needs to be done, and we work with them on that.
    But I would certainly be more than happy to come by and 
meet with you individually and discuss the issues there that 
you have in your district.
    Mr. Higgins. Thank you very much.
    Mr. DeFazio. Ms. Miller.
    Mrs. Miller. Thank you, Mr. Chairman, and let me just tell 
you how delighted I am to be a member of your subcommittee here 
and certainly to join the full committee with our ranking 
member or, excuse me, Chairman Oberstar, and I know you are 
somewhat familiar with my district as we have talked many times 
in the port hearing area with your family members that have 
lived there. In my district that I represent, we have some 
interesting dynamics with aging infrastructure. It actually is 
the genesis of I-95 as well as I-69 which was mentioned by my 
colleague, Mr. Poe, and our chairman also about the NAFTA 
corridor or superhighway, I think is how he characterized it. 
It is something we talk about as well. It has its genesis in my 
district in Michigan right at the foot of the Blue Water 
Bridge, which is the second busiest commercial artery in the 
northern tier of our Nation as well, all tied in with the fee 
and rail tunnel. So it is an unbelievable economic impetus for 
the Nation, and we do look at that as it is completes its way 
sort of transcontinental there being a superhighway for NAFTA 
as well.
    And as we talk about some of the aging infrastructure, and 
I know we have had quite a few questions on this, but I wanted 
to mention this as well about our elderly drivers. Because in 
your testimony, you were mentioning that population over 65 
expected to double in the next 50 years. That is really a huge 
part of our customer base as far as our highways and transit 
systems. In a previous life, before I got this job, I was a 
Michigan Secretary of State, and in Michigan, the Secretary 
does all of the motor vehicle administrative kind of things. We 
were responsible for the licensing of the drivers. I was 
director for the Michigan State drivers association. We did a 
lot with the younger drivers, graduated drivers licensing 
system; and like every State, we labored about whether or not 
we should have mandatory retesting for elderly drivers. But I 
do think, as a Nation, we need to take a look at some of the 
real things we can integrate all the time to help our elderly 
drivers. I am talking about the paint on the road, the lane--
what am I trying to say--lane markings. And as well as even the 
traffic signs that need to be bigger. I hate to admit it. I am 
now wearing these bifocals. We can't see as well. We can't see 
at night.
    Taking away an elderly drivers license, it is such a 
critical part of their independence, and they will sometimes 
think they need to get a drivers license to get a photo ID, 
when they could have a State ID card and use that as well. I 
think, whatever we are doing, if we can think about how we 
could transport our elderly in a way that would not make them 
think that they are giving up their independence but get them 
off the road in many ways. That has got to be a critical part 
in our thinking as we go forward because they are a huge part 
of our customer base. It is so important.
    I think this committee has every opportunity to have a huge 
impact on that thinking and educating our population as well 
about how we assist our elderly drivers to go on with their 
lives without being on the highway all the time. I don't know 
if you have any more comments on the elderly drivers.
    Mr. Shane. Well, that puts it so much more articulately, 
the point I was trying to make about the challenge that our 
system takes as elderly drivers increase over the years. I am a 
card-carrying member of AARP myself, and I worry about my 
ability to drive on the highways. Like most other Members, I 
have no intention of retiring.
    It is a very important part of the challenge that this 
subcommittee is going to face as we authorize these, perhaps, 
in the future. We want to maintain everybody's independence and 
want to maintain everybody's dignity, and we want to maintain 
safety, particularly for those individuals who are of that age, 
and our systems have to accommodate what will be a very 
substantial portion of our population going forward. So it is a 
very interesting challenge, and I have no doubt that we will 
find innovative ways of addressing it.
    Mrs. Miller. Mr. Chairman, when you talk about aged 
infrastructure, I just want to let you know the very first mile 
of concrete highway was laid in Detroit, Michigan, on Woodward 
Avenue between Six and Seven Mile Road. So we really do have 
aging infrastructure.
    Mr. DeFazio. Is it a historically designated place?
    Mrs. Miller. It is. And every summer, we have the dream 
cruise which is the most fantastic--we have all of these 
antique automobiles. They come from all over the world, and 
they want to drive on that first mile of concrete highway. So 
it is a very big thing for us.
    Mr. DeFazio. Mrs. Drake.
    Mrs. Drake. Thank you, Mr. Chairman, and I would also like 
to join Mrs. Miller in saying I am delighted to be on the 
subcommittee. I am the first member from Virginia for a number 
of years to serve on House Transportation, and I think everyone 
knows, the big issue in Virginia is transportation, but I 
represent the southeast corner of the State where we have the 
largest naval base, the Port of Virginia, the tourist 
destination of Virginia Beach, and we talk all the time about 
our huge needs for hurricane evacuation routes. So I am very 
happy to serve on the subcommittee.
    What I was thinking about as we first began the meeting is, 
how do we manage transportation, and how do we put all of these 
pieces together? So to hear Mr. Mica talk about a strategic 
plan I thought was very important. But in a lot of your 
answers, you have talked about things like traffic lights and 
things that we can do that aren't quite as expensive. I would 
like to ask you if there is a way for you to look at more 
flexibility with our States. In the southeast corner of 
Virginia, we have HOV lanes. They don't work. Northern 
Virginia, they work very well, and, in fact, Virginia has even 
stopped the license plates to allow the hybrids on the HOV 
lane. We have an absolute problem. So if there is some way if 
you could look at that and allow States the flexibility within 
their State to manage their transportation and say, in this 
region, it just doesn't work at all. We are at our least amount 
of time, 2 hours morning, 2 hours afternoon, but we have a huge 
parking lot of cars and six cars on the HOV. It is very 
difficult.
    The other thing I would like to bring to your attention, 
and I am going to say it exactly the way my brother said this 
to me when I was a new Member of Congress in 2005. He said, "I 
would like for the first bill that you put in," and I didn't do 
this, he said, "would be a bill to say, you cannot have a 
highway sign if it isn't true." and you know we haven't talked 
about that. You talked about traffic lights and markings, 
lines. You talked a lot about seniors. But you can go right out 
here on 395 where they mark to come into the Capitol and the 
sign says "U.S. Senate right lane," "U.S. House extreme far 
left lane." So you have got people that don't know--I tell 
everyone, get in this lane. Do not move. Do not follow signs.
    So somewhere along the way, we need to have your people 
reporting back or us telling you that that doesn't work. In my 
region, I was a realtor. I would have out-of-town buyers call 
me on my cell phone to say, "I am on 64, this is what the sign 
says. What do I do?" So, you know, we can't continue to do that 
type of signage that puts people in the wrong direction.
    So my first question is about, if you would consider some 
sort of more flexibility with the States; some sort of pilot 
project maybe using southeast Virginia as an example. And I was 
also curious about, you mentioned early partnerships, to know 
what that means. Because I don't know this. That is kind of a 
more regional approach. But in 2005, for the last highway bill, 
I really didn't see a regional approach from our State as to 
what we were asking the Federal Government for, and I thought 
that was a mistake.
    Mr. Shane. Well, Congresswoman, the first thing I guess to 
say about the program is, the center of gravity is with each 
State government. The Federal Government is in effect a conduit 
for funds that are collected for the most part through the gas 
tax. And the Federal Highway Administration gives out a large 
part of that money through a formula grant, and some money, of 
course, we know, is specifically designated for a particular 
project, but it is the State in just about every case that is 
making the fundamental decisions for the distribution of that 
money within the State. So we place--basically rely upon the 
State Highway Department, the State Transportation Department, 
to indicate to the Federal Government what exactly it plans to 
use money for, and that is simply essentially policed by the 
Federal Government as the check is written.
    If there is a particular way in which Federal rules or 
Federal law is denying flexibility that you believe the State 
should enjoy, we would want to know that.
    Mrs. Drake. On the HOV, we are told we have to reimburse 
the Federal Government if we open them up full time. We would 
like to be able to open them up. My friends, they serve within 
the Virginia legislature. Maybe we can talk more about that. I 
wanted you to look at that and think about that for other 
States as well or maybe the other States need to bring it to 
you that this is what is holding us up. But that is what we 
have always been told.
    Mr. Capka. Mrs. Drake, we have had that problem in other 
areas. We have unused capacity in the HOV lanes. And just to 
give you an idea of what other States have been doing to try to 
take advantage of that unused capacity: In Denver, just a few 
months ago, they opened up a hot lane program along with the 
HOV that is a high occupancy, told that would allow single 
drivers, individual drivers, if they pay a toll, to use the 
available capacity on the HOV lanes. Of course, the requirement 
and the use of those hot lanes is that the toll traffic will 
not consume the capacity to the appointment where it becomes 
less than freefalling.
    There are available plans like that that we can help you 
with right now.
    As far as just doing away with the HOV lanes, we would have 
to sit down and go through some of that.
    Mrs. Drake. Thank you, Mr. Chairman.
    Mr. DeFazio. I think that is a very interesting question 
because we wanted to utilize capacity that we have, so that 
merits continued discussion, I believe.
    I am going to Ms. Hirono.
    Mr. Oberstar. A question without comment or response at 
this point. When is the Federal Highway Administration going to 
issue a standard on retroflectivity so that we can have a 
dependable standard? There are technologies available in 
retroflective material that are a hundred times more 
luminescent than what exists today. I don't want a comment 
right now because that will be too long.
    The Chairman. All right. Ms. Hirono.
    Ms. Hirono. Thank you. It has been said that the minute a 
road or highway is built or expanded, it is obsolete because 
there is immediate congestion. So it is kind of a vicious 
cycle. I realize that we have a major responsibility to keep 
our infrastructure going and to help our communities with the 
congestion problems. But as we look to the future, you know, 
for the next 50 years, are there some directions that 
communities should be going into States and districts regarding 
moving people from point A to point B that does not require us 
to continue to build more and more highways?
    Mr. Shane. We encourage public transportation. We have a 
Federal Transit Administration that has a part of money that is 
part of the Highway Trust Fund. There is also money in the 
General Trust Fund for Transit. And public transportation is 
something that every mass transit organization should be 
thinking about as a strategy for addressing the problem, 
recognizing that the communities are constructed in different 
ways, and it is easy to do transportation in some than in 
others. But what we hope is that there will be a comprehensive 
planning process embraced at the local level which thinks those 
issues through. All of us, I think, are aware that the Federal 
programs have, in many cases in the past, distorted the amount 
of flexibility that is available at the local level. And one of 
the big challenges, I think, as we go forward is to try to 
remove those distortions to have a Federal transportation 
program that allows communities, whether locally or regionally 
or at the State level, to embrace those solutions that make the 
most sense. Without reference to that will be--would be great 
if we could do it, but there is no money for that.
    Mr. DeFazio. I thank the gentlemen, and the committee will 
stand in recess for--well, we will return immediately after the 
second vote. There are two votes, so hopefully by noon.
    [Recess.]
    Mr. DeFazio. Please excuse the delay.

  TESTIMONY OF JACK SCHENENDORF, COUNSEL, COVINGTON & BURLING 
LLP, WASHINGTON, D.C.; AND STEVE HEMINGER, EXECUTIVE DIRECTOR, 
  METROPOLITAN TRANSPORTATION COMMISSION, OAKLAND, CALIFORNIA.

    Mr. DeFazio. Mr. Schenendorf, welcome. And I would be 
pleased to receive your testimony.
    Mr. Shenendorf. Thank you, Mr. Chairman. It is a great 
honor, indeed, to be here today to testify before the committee 
on which I served as a staff member for so many years. I am 
Jack Shenendorf with the law firm of Covington and Burling. I 
practice in government affairs and transportation.
    Before joining the firm, I served on staff of this 
committee for over 25 years, and in between leaving the 
committee and going down to Covington, I was head of the policy 
transition for the Bush-Cheney transition team.
    I am testifying here today in my capacity as the vice chair 
of the National Transportation Commission. And the commission 
is made up of 12 members. The Secretary of Transportation is 
the chair, three other members appointed by the Executive 
Branch, four members appointed by the House, four members 
appointed by the Senate, and I was appointed by Speaker 
Hastert.
    The Congress, in putting together the commission, 
recognized that a perfect storm was gathering. And it starts 
with and really the elephant in the room, in many cases, of the 
huge maintenance needs facing the country on just maintaining 
our existing interstate and our existing Federal aid systems 
and highway systems. And most of the numbers, the "needs" 
numbers that you see in maintenance, do not include the 
enormous cost of replacements that we are facing for replacing 
segments of the interstate. You can see it in this area, $2.4 
billion to replace the Woodrow Wilson Bridge that originally 
cost $14 million; almost $800 million to replace the 
Springfield interchange that cost $10 million when it was first 
built. So it--there is a huge cost there.
    Secondly, the huge investment needs that are going to be 
needed to increase capacity on the system to provide for 
efficiently using the system to maximize the through-put of 
what we have today and then adding capacity.
    And the third piece of this is the funding sources have not 
been able to keep up with this. Congress recognized this and 
established the commission, and nothing that we have heard so 
far in the commission would indicate that this perfect storm is 
not coming, if not already here.
    I was asked to talk today about what the commission is 
doing, challenges facing the commission and to say a few words 
about the second commission that is being set up.
    The commission's work--the commission's charge is we have a 
needs--we are looking at the entire picture. We are looking at 
needs. We are looking at the roles of government, the Federal 
role, what State and local roles should be private sector and 
also looking at the financing options in order to meet the 
investment needs.
    We are also looking at this from a short-term, a medium-
term and a long-term perspective. So we are looking at all of 
the different time frames involved. And we are also looking 
across modes. We are looking at highways. We are looking at 
transit, intercity freight rail, intercity passenger rail, bus 
transportation, intermodal facilities. We are looking across 
the entire range of transportation. You directed us to come 
back with a conceptual plan with alternative approaches, 
including specific recommendations regarding Federal policies 
and legislative changes and including recommendations for 
alternative revenue sources to support the trust fund.
    The commission is proceeding on a time schedule where we 
would have our work completed by December 31st, 2007. You had 
included a provision in the technical bill that would basically 
adjust the deadline from July 1st to December 31st, but we 
thank you for also telling us that even if that doesn't pass, 
that we have until December 31st to get the job done right.
    As part of our work, we are doing public outreach. Dallas, 
Portland, New York, Memphis, are hearings we have already had. 
We are going to be going to Atlanta, Los Angeles, Chicago, 
possibly Minnesota, and we are also going to have a hearing 
here in Washington on March 19th, and I have actually already 
talked to the committee staff about possibly using this room 
for the hearing we are going to have in Washington, DC.
    The policy backbone of the commission's work are technical 
analyses that are under way. You can see from this list that we 
have a huge number of papers in development across a wide range 
of subjects. Those papers are currently being prepared. Some 
have already been delivered and are in pretty good shape from 
consultants and from the DOT staff. Others have been prepared 
and are now being revised or sent back for more, and then there 
is another whole view of them that we have yet to receive the 
initial drafts. And it covers a whole range from current status 
to baseline needs and to the financing alternatives.
    The commission's work also includes a blue ribbon panel 
consisting of 74 members. The first meeting is going to be in 
February. They are going to provide peer review, and they are 
going to do selective projects that the commissioners give 
them.
    The challenges facing the commission. We got off to a slow 
start. We were 6 months late because of the executive branch 
appointments being late. And then we have had three successive 
chairpersons, Secretary Mineta, Deputy Secretary Cino and now 
Secretary Peters. So that has kind of slowed things down, but 
we are now up and running under the good leadership of 
Secretary Peters.
    The resources: We had $2.8 million. We have asked for an 
additional $2 million, which you were kind enough to include in 
the technical bill which we really do need to make sure we get 
all of these studies and all of the scenario analysis work that 
we are going to do to make sure we have sufficient resources to 
do those properly.
    The biggest challenge has been finding the vision, what you 
were talking about. What should this system look like 50 years 
from now from a national perspective and trying to define that. 
It is multi-mobile. It is not going to be as simple as a map of 
the interstate and how one defines that and what that is. 
Almost every witness says we need a bold vision, and we are 
asking everybody well, what is your idea of what that bold 
vision should be? And so we are working on that.
    Another challenge is going to be to diverse views that the 
commissioners bring. We have got 12 good hardworking 
commissioners that come at this from different viewpoints. We 
are going to have a very, very healthy debate, and if we are 
able to reach consensus, it is going to be a product that is 
worth your attention because of the different views that people 
have had coming into this.
    With respect to the second commission, that is something 
that was set up in the Ways and Means and finance title. It has 
a much more narrow mandate than hours, and that it is only 
looking at the financing piece. It is not looking at the levels 
of government. There was no actual money put in for it. And so 
that is another factor. We did discuss this at the last 
commission meeting. I think there was a consensus among the 
commissioners that the existence of that second commission does 
not in any way detract from what we are supposed to do. We 
still need to meet the requirements of the statute, and, 
secondly, the funding that is made available the resources from 
DOT are made available for the Section 1909 commission. It 
cannot and should not be used directly or indirectly for this 
other commission, that it needs to find its own source of 
revenues.
    Thank you. I look forward to questions.
    Mr. DeFazio. I want to apologize.
    Ranking Member Duncan, he was going to come back before 
this 15-minute vote, and I said there is another vote because 
we are in the middle of a procedural tussle here, and I think 
that he perhaps misunderstood the communication because I don't 
want to keep all of the witnesses here for--this could go on 
until this evening some time. So that is why I am trying to 
squeeze this in now. It is no disrespect on the part of the 
ranking member. He is trying to get back, and we are probably 
going to have another vote soon.
    So Mr. Heminger.
    Mr. Heminger. Mr. Chairman, thank you, and good afternoon.
    I do appreciate Mrs. Taucher's introduction. So I can 
dispense with that for me and get right to the meat of my 
presentation.
    Jack, I think, has laid out for you a good sense of our 
process. I would like to identify for you, and in my testimony, 
I do have five key issues that we have focused on to date, and 
I would--they are responsive to the issue that you and Mr. Mica 
raised about a national vision, a national strategic plan, if 
you will, that we currently lack for our transportation system.
    And I have put this presentation together under the theory 
that a picture is worth a thousand words. So on page 4 of my 
testimony, I show the picture about traffic congestion which is 
two maps of the U.S. The first is from 1982 where in only one 
city in America did the average commuter spend more than 40 
hours annually in congestion. That is now, as of 2003, more 
than two dozen communities. It is a very significant problem, a 
real sap on our economic strength and mobility in those areas.
    Mr. Shane earlier gave you sort of at the top end of the 
tree one of the potential solutions, which is congestion 
pricing. At the lower branches, there are things, very low cost 
operational strategies that we believe we ought to be 
considering with much vigor because half of the congestion is 
related to incidents and accidents. It is not recurring. It is 
not related to capacity, and we have barely scratched the 
surface in terms of deploying those solutions.
    The next page, on page 5, my second page picture, I don't 
think "tsunami" is too strong a word to describe what is 
happening to our ports in terms of international trade. And 
these forecasts from U.S. DOT out to 2020, not to 2050 but at 
least out to 2020, show very sizable increases throughout the 
United States at these ports. This is especially true where I 
live on the west coast because a lot of what we buy these days 
is made in Asia and makes its way to the United States 
throughout the country through the port of Los Angeles and Long 
Beach. The very significant increase you see there, Mr. 
Chairman, is really not going to occur, in my view, unless we 
make significant infrastructure improvements at that port. That 
kind of increase with their current capacity and with the 
current community concerns that Mrs. Napolitano has mentioned 
is simply not sustainable. This is an area, in my view, that 
clearly qualifies as one of national interests because of 
interstate commerce, international trade, as of yet national 
leadership is lacking. And it is a main focus of our commission 
activity.
    The third picture I have for you on page 6 has to do with 
safety, and I am certainly not going to reengage the debate 
about older versus younger drivers. The fact is there are too 
many drivers of any age being killed on our highway system 
today. What this chart shows, it is the latest release of 
information for NHTSA is that we basically made no progress in 
reducing fatalities over the last 20 years. In my reading on 
this, I came up with one really startling comparison. Since the 
advent of the automobile, 3 million Americans have died on our 
highways, which is five times the number of U.S. war deaths in 
the history of the Nation.
    If we don't have some better progress on this problem in 
our work, in your work, in re-authorization, I think we really 
will have failed ourselves and the rest of the country.
    The fourth picture is a bit of an oddball, I will admit, 
and this is one that the commission has not spent as much time 
on. It is on page 7, and it comes with a lot of names, whether 
it is national energy security or energy independence or energy 
efficiency, and I think it is fair to say that the 
transportation community, generally speaking, regards this 
issue more or less as a threat, you know, that if fuel 
efficiency gets better, our revenue source goes down, and that 
is how we ought to look at the question. And I think that is 
not looking at the question correctly. I think we need to look 
at it also as an opportunity for our sector for our community 
to contribute to a national goal. The chart I show you shows 
some of the increasing trends around the world, and in my 
State, California, although our standards are now under 
challenge in Federal court by the automakers to improve fuel 
efficiency, you can see where the U.S. ranks compared to the 
rest of the world, which is at the bottom.
    But the fact is, there are different ways to skin this cat. 
As you know, the vehicle fleet in Europe is much more fuel-
efficient and that has in large part to do with very high fuel 
taxes, and fuel taxes, as you well know, raise revenue which is 
one of the things we are desperately lacking in our 
transportation system. So I do hope that we will, and that you 
will, examine this question in the context of our 
transportation system, not just in isolation as an energy 
strategy.
    The last one I will touch on briefly is clearly the revenue 
question itself. I have included two pictures in my 
presentation. The next to last has to do with the problem that 
you are very familiar with which is the short-term issue of the 
Highway Trust Fund entering into negative balances. I won't 
spend much time on that because you are well aware of it.
    The last picture in my presentation to me is even more 
worrisome because it shows the very large gap that exists by 
this account from a U.S. Chamber of Commerce study a couple of 
years ago on the order of $50 billion to $100 billion per year 
in the cost to maintain and improve our transportation system.
    As Jack indicated, our work plan calls for a thoroughgoing 
review of this question, and I think one of the things where we 
will really add value is an objective assessment of where we 
think the Nation ought to move forward in a national strategy 
and what the needs that will accompany that strategy might be, 
and then working our way to the revenue question about how we 
might raise the money to do so.
    One worrisome footnote I will leave you on this last 
picture is that these numbers are probably, in all likelihood, 
understated. What you have seen recently, what we have all seen 
around the country in construction costs, has been a 
substantial escalation over the last few years because of 
materials, especially steel and concrete. China is using a lot 
of those, just as we are, and we will be factoring that and 
other issues into the estimates that we provide you.
    In conclusion, you have clearly given us a tall task, but I 
know both Jack and I love a challenge, and that is what you 
have given us, and we look forward to providing you our report 
later in the year and to consulting with you frequently in 
between times.
    Thank you.
    Mr. DeFazio. Thank you.
    I am going to withhold questions at the moment. The way we 
are going to do this is, if Ranking Member Duncan shows up, he 
is recognized for questions. I will run and vote and then come 
back, and hopefully that way we will sort of overlap here and 
maximize your time, because I really bemoan the fact that we 
invite witnesses, and you are sitting around for hours because 
of something we are doing of no particular consequence in terms 
of procedural votes.
    So, if you could just sort of not go from the room 
because--do you think he is going to come back on this vote, or 
is he going to--it was a 15?
    OK. So he was on his way back, and then he went back to 
vote, so he is now on his way back again--we are giving him his 
exercise--and when he comes in, he is immediately recognized to 
ask questions. And then I will come back and ask a round after 
he does, and then we will move on to the next panel. If any 
member of the committee shows up in the interim, they are 
recognized to ask questions.
    [Recess.]
    Mr. DeFazio. Thank you.
    I just saw Ranking Member Duncan on his way back to vote, 
so if I talk slowly, perhaps I will just be finishing at about 
the time he can turn around and come back. I have a few 
questions that occurred to me.
    As sort of a general question to either or to both of you, 
do you perceive any barriers or problems in achieving the 
rather ambitious--I mean, other than the very difficult nature 
of the subject matter which we have put before you in terms of 
wanting you to look into the future, analyze future 
transportation needs, and then also come up with innovative and 
a different range of options to fund them, other than the 
difficulty of the charge, are there any barriers? Mr. 
Schenendorf discussed the extension of the timeline, which is 
certainly going to happen in the technical corrections; the 
additional funding, which I do not believe will be a problem 
even in these new tighter times, because that would be trust-
funded, so we should not run into the "pay as you go" problem.
    Are there any barriers that you care to enlighten us on 
here that we could deal with? I am just giving you a chance if 
there is anything that you did not--------
    Mr. Schenendorf. No. As long as we are able to basically 
look at the full mandate of what we were asked to do, I do not 
think there are any problems as long as--I mean, it is a big 
task, and it is going to take the resources and the vision, but 
as long as we are able to look at all of the options from 
raising the gas tax, new fuel taxes to congestion pricing--
everything is on the table--then I do not see any problem. And 
if we are looking into defining the vision and saying which of 
these financing sources can get us there, then I do not see any 
problem. And right now, everybody has said that everything is 
on the table, so I have not sensed among the Commissioners that 
anybody is trying to constrain this in any fashion.
    Mr. DeFazio. And there would be, as I would understand it, 
no review authority beyond the Commission. That is, if you come 
up with a range of financing options, those do not have to go 
through the Office of Management and Budget? I mean, you are an 
independent Commission with technical assistance and that from 
DOT, but if the Commission--you are not aware of any--------
    Mr. Schenendorf. No, I am not aware of that.
    In fact, I think when that question came up we were told it 
does not have to go through OMB. We are an independent entity.
    Mr. DeFazio. So you are looking at everything from the 
traditional raising of the gas tax, to innovative ways of 
assessing the cost of the system and putting them on users, to 
public-private partnerships? All of that is on the table?
    Mr. Schenendorf. Yes, sir, that is my understanding of how 
we will be operating.
    Mr. DeFazio. Great.
    Mr. Heminger, do you want to add to that?
    Mr. Heminger. I agree with Jack's response, but would add 
one thing.
    I think one of our barriers is to aim too low. You know, I 
think Mr. Mica mentioned it earlier about bean counting and all 
the rest of it. You know, we are all used to the system that we 
are in, and I think our greatest challenge is to think beyond 
that system and to think big, and that will involve, obviously, 
political challenges when you think that big. We are going to 
leave them largely to you because you are the elected body, but 
we are going to give you our best advice across the range of 
the issues that we have got before us.
    Mr. DeFazio. OK. Now, internally, have you determined how 
the report will ultimately be written; i.e., are you only going 
to put in items which reach consensus? Are you going to have 
majority vote? Are you going to have a minority report on 
certain issues?
    Have you worked through those procedures yet?
    Mr. Schenendorf. We have not worked through those 
procedures yet. I think everybody there is hoping that we can 
reach a consensus. That would be the ideal thing. I think that 
would be a report that would be most helpful, but you know, I 
think all of those options are open if it gets to that, but we 
have not had any discussions. I think everybody is working hard 
to be able to reach a consensus.
    Mr. DeFazio. OK. Well, I would hope, if there are items 
that certain individuals on the Commission feel very important 
that cannot achieve consensus but would be instructive or 
informative to this committee and to the Congress, that they 
would be in either dissenting views or in appendix or annex or 
something along those lines.
    I was involved in formulating a commission on the causes 
and the magnitude of the trade deficit, and they had hoped to 
do things by consensus and ultimately could not, so their major 
findings were done by consensus, but then there were 
essentially two sets of dissenting views or additional views, 
should I say, included, which were very, very instructive and 
informative. So we do not want to forego that knowledge because 
you cannot reach consensus, and I think most of my colleagues 
would agree on that.
    Now, I am curious about the second Commission. I mean, one 
of your charges is to look at financing and the full range of 
options. So I guess my question to you would be: Do you see 
that there is duplication with that Commission? Do you feel in 
any way it might dilute your efforts or inhibit your efforts?
    Any thoughts on that?
    Mr. Schenendorf. No. Well, again, aside from the point of 
deferring to Congress--I mean, Congress did put the two 
Commissions in, so they are there.
    I would say it does seem duplicative of the financing 
portion that we do, and I guess I have a personal concern as to 
what the perception of that is, you know, why people--you know, 
does it make sense having two. And then, you know, at the end 
of the day, if the recommendations are different, then, you 
know, what does that do? And then also from a resource 
perspective, since that Commission does not have any dedicated 
resources, is it going to somehow at some point dilute our 
effort even though we are trying to make sure that it does not?
    So I do have those concerns, but really I think it is a 
question for Congress to decide and to decide whether or not to 
make any adjustments.
    Mr. DeFazio. Well, I actually intend to have a conversation 
with my colleagues on the committee and others who are involved 
on other committees of jurisdiction for the second Commission 
in the hope that we could assure the members of the Ways and 
Means and Finance Committees of the House and Senate that their 
concerns will be fully addressed by the existing Commission, in 
fact, better addressed by the existing Commission, if there is 
not a duplicative effort or any diversion of resources, and I 
am hopeful--of course, we have to deal with the Senate on that 
issue, too, but I am hopeful that they may be agreeable to that 
as part of the technical corrections.
    I am certainly going to raise that issue because, you know, 
one Member who insisted on this is no longer in Congress, and, 
you know, we do have a new majority in the Senate where one of 
the originators does still sit, but I would hope we could 
convince him and others that you can give them the tools or the 
items for discussion that they need.
    I mean, I feel--and contradict me if you think I am wrong--
but given the limited resources available and the fact that you 
need more resources, that this potentially could divert some 
staff time and/or resources from your vital work and difficult 
work.
    Mr. Heminger. Mr. Chairman, I do agree with that, and I 
think there is another point, and you just referred to it.
    We have had many discussions at our Commission about the 
fact that we need first to proceed to a national vision and the 
needs to carry out that vision, and then, second, to address 
the revenue questions. And I personally do not think it does a 
lot of good to address the revenue question separately from the 
needs and the vision because very often the revenue mechanism 
you select could work for or against some of the vision and 
needs that you are trying to carry out. Some of them are 
preeminently local, like tolls, where the tolls generated in 
the United States right now are kept right where they are 
generated. Unless you want to put in place a national tolling 
apparatus, you really do not have a revenue source that matches 
up with the national program, just as an example.
    Mr. DeFazio. Just one last question. I appreciate the fact 
that you have been here so long.
    You did, Mr. Heminger, mention that there are a lot of low-
cost things out there we have not done yet, and in particular 
when you talked about half of the delays being due, actually, 
not to capacity issues, but to incidents and accidents. Could 
you address how we would creatively address that in a low-cost 
way?
    Mr. Heminger. Well, you know, one of them Mrs. Tauscher 
mentioned at the outset of her question, and that is we have 
got a hodgepodge system out there in terms of the information 
we collect from the road, and that means we do not have as much 
for the planners and the builders, and we do not have as much 
for the travelers, most importantly.
    If we had a dedicated fund source which would be a one-off, 
essentially, to get that system instrumented especially in the 
major metropolitan areas, that would be a huge advance at a 
very cost-effective investment.
    The second thing, some of this we have been doing a long 
time in some areas and not in other areas. A lot of this is 
accidents. If you get the accident off of the road faster, the 
traffic flows faster. We have got 70 tow trucks in my region in 
the Bay Area doing that very thing, but not every region has 
it. To some extent, Mr. Chairman, it involves, I think, a 
culture change in the profession. The profession is an 
engineering profession, and, you know, when you are a hammer, 
every problem looks like a nail. Well, they tend to try to 
solve problems by building something, but these are problems, 
especially in these incident areas, that you do not need to 
build something, or at least what you build is antenna wire and 
the rest--it is not asphalt and pavement--and I think 
incentives and encouragement from the Federal level, from 
Congress, as well as some direct assistance to get some of 
these critical elements put in place could go a long way.
    Mr. DeFazio. Not to be insensitive here, in the case of a 
fatal vehicular accident, obviously, we need to both take care 
of anybody who is injured, and we have to document the 
incident, but in your region, does that--in my State, it 
becomes a crime scene, and then it involves the State police, 
who will often block off the highway for hours. They have no 
concern over the flow of traffic. That is not their job. Their 
job is to investigate.
    I mean, how does California handle those sorts of things?
    Mr. Heminger. Probably just as poorly. I have heard, 
though, of some States that have come to agreement with public 
safety officials whereby the sort of crime scene, as you 
described it, can be relocated to the side of the road as best 
as possible so that the traffic can flow again. You know, no 
one, as you suggest, wants to be insensitive to what has 
occurred, but at the same time, I do not think you are doing 
anything--you are really compounding the injury that has 
occurred by causing needless backup in the traffic down the 
road.
    Mr. DeFazio. Right. The backup often has accidents at the 
far end of the line because the traffic suddenly stops on the 
interstate, and then you have another incident back here, 
hopefully not a fatal one, but another one and another one.
    Mr. Heminger. And this is something we do not do as readily 
as we should, working across jurisdictional boundaries. It is 
not just a transportation issue. It is not just a public safety 
issue. It is both.
    Mr. DeFazio. OK. Thank you. Let me just consult with 
counsel.
    I was just trying to be sensitive to the--I am sorry again. 
What we are going to do is I am going to go over and vote, and 
that should give us, at least by the time I get back--I am just 
guessing--but probably as much as a half an hour, who knows, to 
get into the next panel. But if you could, just stay, if your 
schedules permit, in case Mr. Duncan arrives back until we 
convene the next panel, and if he has some questions. I would 
appreciate it.
    Thank you. I appreciate it.
    [Recess.]
    Mr. DeFazio. Gentlemen, Mr. Duncan is recognized for 
questions.
    Mr. Duncan. Well, thank you, Mr. Chairman, and I will be 
very, very brief since we have got another panel that we need 
to get to. And I did not get to hear the testimony, but I will 
say this.
    I have certainly had the privilege of working with Mr. 
Schenendorf over the years, and everybody who ever did that has 
always had a lot of respect for Jack, so--you know, one thing I 
was trying to remember, though, Jack--you know, we had this big 
delay in the highway bill this past year. Maybe my memory is 
just not really good, but I do not remember having anywhere 
close to that long of a delay on the original TEA-21 
legislation.
    What was it? Do you recall if there was much of a delay on 
that legislation?
    Mr. Schenendorf. That legislation was supposed to be 
completed in the first year of the session. It was supposed to 
have been completed by October 1st, and it actually went over 
into the spring of the following year.
    Mr. Duncan. So it was not nearly as much as this time.
    Mr. Schenendorf. Right.
    Mr. Duncan. So, October. Around here that is not bad, 
October to the spring. Hopefully we can beat that this time, 
but thank you very much for being here and for all that you do, 
both of you.
    Thank you, Mr. Chairman.
    Mr. DeFazio. I want to thank both of you. I want to thank 
you for your service on the Commission. We look forward to your 
product. We will do the best we can to accommodate your budget, 
your timelines, and then I will also be in discussions with Mr. 
Duncan and with our full committee Chairman and Ranking Member, 
seeing if they share the view that we might be able to get the 
product that finance folks need out of your report and your 
committee and not have to have a duplicative committee, and 
hopefully that will expedite things.
    So thanks again. Thanks for your thoughtful testimony. I 
appreciate it.
    We now call the next panel to the table: Mr. Pisarski, 
Professor Schwieterman, Dr. Bronzini, and Dr. Lomax.
    Gentlemen, thank you for your time. Thank you for your 
indulgence. I regret the fact that this has gone on much longer 
than we had anticipated, and hopefully none of you were unduly 
inconvenienced, but I appreciate it.
    I have read your testimony, and I appreciate any summary 
that you want to give at this time within the 5-minute limit. 
In addition to that, if something has come up earlier that you 
would like to respond to or to contradict or agree with, you 
can also do that in those 5 minutes, and then we will have a 
round of questions, and I guess we will just start in the order 
on the list here.
    So the first would be Mr. Pisarski.

 TESTIMONY OF ALAN PISARSKI, PRIVATE CONSULTANT, FALLS CHURCH, 
VIRGINIA; JOSEPH P. SCHWIETERMAN, PROFESSOR, DePAUL UNIVERSITY, 
  DIRECTOR, CHADDICK INSTITUTE FOR METROPOLITAN DEVELOPMENT, 
     CHICAGO, ILLINOIS; MICHAEL S. BRONZINI, GEORGE MASON 
 UNIVERSITY, DEWBERRY CHAIR PROFESSOR, FAIRFAX, VIRGINIA; AND 
   TIMOTHY J. LOMAX, TEXAS TRANSPORTATION INSTITUTE, PROGRAM 
       MANAGER, MOBILITY ANALYSIS, COLLEGE STATION, TEXAS

    Mr. Pisarski. Thank you, Mr. Chairman and Mr. Ranking 
Member. I am Alan Pisarski, and it is a great pleasure for me 
to appear before this committee once again to discuss with you 
the substantial challenges the Nation faces in transportation.
    I was struck by the discussion earlier this morning, 
particularly with Chairman Oberstar, remembering the history of 
the interstate. I Chair the Committee on Transportation History 
at the Transportation Research Board, and have spent a lot of 
time over the last 2 years studying that history, and the 
Chairman, by the way, has it right. It was a 20-year effort, 
sir, and I think this is useful to this body. It began with a 
sense of vision in the 1930's with President Roosevelt and was 
followed by a plan in the 1940's and then was followed by a 
financing plan in the 1950's.
    So I think it is very appropriate to recognize the 
necessity for vision, but also to recognize that this is a 
long-term effort. If you look back and see the successes they 
had, and we measure ourselves against that, we are deficient, 
and we really need to rediscover the vision and the power of 
that vision that they were able to accomplish.
    In my paper there is a page-long summary statement, of 
where I think some of the key problems are going to be. I will 
not go through all of those here with you today. In fact, I 
want to just pick out three of those to emphasize.
    I really do feel that the Nation will be facing what I 
think is perhaps the most dramatic changes in its demography 
since the great immigration waves of 100 years ago. I just 
completed a book for the National Academy of Sciences called 
Commuting in America III, and I do want you to know that AASHTO 
is distributing copies of it to each of the Members, that you 
will be receiving next week. What I talk about there is the 
fact that we are going into a new phase of commuting where, in 
fact, the issue may be too few workers rather than too many.
    The issue is going to be how do we replace the baby 
boomers? We are going to need to keep the older workers 
employed. We are going to need to get more women involved in 
the workplace. We are going to need to get minorities more 
involved. Rural populations are going to have to connect better 
to urban jobs markets. The great issue is going to be using 
transportation to sustain the workforce.
    The second area of great concern is going to be the 
expanding of metro areas. I expect 15 metro areas over 5 
million, probably half the population of the country in those 
massive areas of 100-miles across by 2020. The dominant pattern 
is going to be suburb-to-suburb commuting, kind of a "doughnut 
metro", people flowing out to the suburbs from the center 
cities and people flowing into those suburbs from other metro 
areas and from rural areas.
    Finally, I suggest to you there is an affluent, time-
focused society that we are going to be seeing. If I were going 
to pick a vision for the society, it would be "Think of a 
transportation system that will serve people whose value of 
time is $50 an hour and a freight system that has triple the 
value of today's average value of goods." I will just simply 
point out here that transportation is going to be critical in 
responding to each of those areas.
    This display is a map of the Nation's counties that are 
exporting more than 25 percent of their workers to other 
counties every day---the red counties. As you can see, 
everything east of the upper Great Plains--has become a 
phenomenon in just the last 15 or 20 years. We are talking 
about half of the new workers are now leaving their home 
counties to work in adjacent counties and, in fact, crossing 
over into other metropolitan areas. So it has really become a 
critical pattern, I think, for the future.
    Mr. DeFazio. Is that in your book?
    Mr. Pisarski. Yes, sir.
    Mr. DeFazio. That was in your testimony.
    Mr. Pisarski. Yes, Mr. Chairman, and there is a discussion 
of how that trend and pattern are moving.
    The attributes of my vision are the seven listed, but I 
will simply point out that the first has been discussed this 
morning. There are immense things we can do in operational 
terms that do not need massive investment and that we need to 
do first I think the public expects us to do them first before 
we start talking about massive investments and capacity.
    At the same time, and the last point I am making here, is 
that we do have a tremendous backlog of congestion-related 
infrastructure, physical-condition-related and capacity-related 
issues. I think once we get past that backlog, we have a future 
that, in fact, we can readily address.
    I cannot go into all of the elements that I have proposed 
in my paper, the national system's elements. I will just point 
out a couple here.
    The first is an expanded and enhanced Interstate. I am 
working on a project on the future of the interstate, at the 
National Academy, and we have addressed some of those 
questions.
    The second two I will point out is that I think we are at 
the stage where we are going to have to recognize in the future 
that we have to separate cars and trucks. I am suggesting here 
the idea of a national parkway system and the idea of a 
national truck freight system. On the nationally pervasive 
units that we are talking about--I will not pursue all of them 
here--two points that I will make are a lot of it comes down to 
the need for beltways serving the circumferential pattern that 
I have just identified.
    The final point I want to make is that our data systems are 
pathetic. The Department of Transportation has not done well in 
that area, and I think it is something that really needs 
congressional cognizance and concern. I believe we need a 
performance-based system for the future, and we cannot do 
performance measurement without the data, and the Department 
has not provided it.
    But my very long-term view is I see a very positive future, 
much more operable problems with the resources to address it. 
We simply need to recognize the central role of mobility in our 
society, and we must be willing to act to focus those 
resources.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you.
    Professor Schwieterman.
    Mr. Schwieterman. Yes. Thank you, Mr. Chairman and the 
Ranking Member, for a chance to be here.
    My remarks are really shaped by my 24 years of experience 
in transportation. I spent nearly a decade at a major private 
transportation company, more recently as a professor. I have 
written several books. My most recent book looks at the effect 
of changes to rail service in smaller towns and cities, and I 
would really like to start-- and I have been very pleased with 
what I heard this morning, which is that, in the next bill, the 
interdependency between highway and rail and waterway is going 
to be at center stage. And we have really missed opportunities 
in the past to have a lot of lip service to intermodalism. We 
have had some good progress, but not as much as those of us who 
celebrated the first IT had hoped. And so I think we are 
learning, and I think the next bill may be the window of 
opportunity to really push that onto a new level.
    My second proposition really relates to this new bill and 
changes we make. We need to leverage private capital, and that 
needs to be at center stage, and, you know, this could take 
many forms. I think toll highways are the most prominent thing, 
but there are intermodal, joint partnerships, public-private 
partnerships for transit facilities, freight railroad systems, 
and so forth.
    So I want to commend the architects of SAFETEA-LU, and many 
of them are on the committee here, for really pushing us toward 
that, and there are some things that I am really pleased to see 
are working.
    There are loans for local short-line and regional 
railroads. There are tax credits for major railroads. That is 
exciting stuff. We have more grade-crossing money. That is 
facilitating major freight corridors to become more efficient. 
We also have the projects of national significance, the CREATE 
Program in Chicago, to unclog our freight yards. Similar 
projects around the country, I think, are giving focus to this 
idea of private-public partnerships, and we also have the $15 
billion of allowances for private activity bonds for State 
governments. We heard some talk here about Texas' plan this 
morning, one of the first States to actually receive approval 
for these private activity bonds, and this is big stuff, and it 
really has the potential to bring an infusion of capital to the 
table.
    So, as we look at the problems of the Highway Trust Fund, 
and we have heard a lot about that this morning, I think the 
real temptation here is to avoid the quick fix, to avoid the 
expedient approach to just look at highway user fees, and to 
step back and say this is an opportunity, really, to think 
outside the box a bit. And I would like to share, just very 
briefly, two bits of research I have done at DePaul University.
    The first is we looked at the changing reach of the rail 
system and how policies that have been very punitive of the 
railroads have affected the access of a lot of towns to rail 
service, and we found there are 2,500 towns in the United 
States with populations of more than 3,000 people who no longer 
have any sort of rail service, freight or passenger.
    We also found a few metropolitan areas now with more than 
100,000 people who have not a single mile of active railway 
track, and we have found that, you know, it is a combination of 
things. It is highway user fees, cross-subsidies to heavy 
trucks. It is outdated Federal labor law in some cases. It is 
also punitive property taxes. Big money for railroad property 
taxes has never really been addressed in any sort of Federal 
way, and a lot of cities are struggling to bring the rail 
service back and to make it more relevant in the freight 
picture. And there are at least two dozen cities we found that 
have been successful in restoring our rail links, and some in 
the districts of committee members here, and I will not go 
through the list, but I can tell you SAFETEA-LU has been pretty 
much at the back seat of all of that; that there are a lot of 
countywide efforts to shore up intermodal use and so forth, and 
SAFETEA-LU, unfortunately, has been pretty much background 
music as opposed to being there to really facilitate some of 
this.
    Two days ago at the TRB conference, I gave a presentation 
looking at all of the proposed high-speed railway corridors 
around the country that have gotten government backing, and 
there are 15,000 miles proposed of various stages of planning, 
but it became clear that the States are really looking to the 
private railroads to form partnerships to try to move some of 
these things forward. They understand that this cannot be done 
with a simple Federal allocation, it needs to be done in 
partnership with the private sector. And there are 21 freight 
railroads that are affected by routes that are being proposed, 
2,000 miles of transit agency track. Several thousand miles of 
interstate highway has been slated. There is no illusion that 
these high-speed systems are going to arrive any time soon, but 
it shows that, at the State level, there is real interest in 
working with private carriers to develop partnerships, to make 
capacity improvements that can push us into the next level.
    So, in closing, I just offer three recommendations. First, 
the States are still looking for more flexibility. SAFETEA-LU 
gave them considerably more flexibility, but they need more. To 
manage the highway-rail interplay, they need much more freedom 
to think outside the box with their spending. Kansas, Virginia, 
Georgia, and Iowa are just four States that are at the 
forefront of that.
    Secondly, I think more incentives for private investments. 
These private activity bonds should be the foundation for a 
much larger package. Funding and expedited processes for 
private tollways, truckways, investment credits for railroads 
really should be at center stage.
    So I bring much good news from the American heartland. I 
mean, we have got--the Chicago Skyway has been turned over to a 
lease and so is now on safe financial footing because of the 
private capital we have enlisted. An Indiana toll road is being 
leased. The Detroit railroads are investing in a huge way in 
facilities to unclog the freight system. I am not sure we will 
be cooperating with Indiana quite so much on Super Bowl Sunday, 
but I can tell you that there is a lot of synergy going on 
there.
    So, as we move the new transportation bill, avoiding the 
quick fix and seizing this private capital is really where I 
see a great opportunity.
    Thank you for the time to express my views.
    Mr. DeFazio. OK. Thank you, Professor.
    Dr. Bronzini.
    Mr. Bronzini. Thank you, Mr. Chairman.
    It is a pleasure to be here today, and especially to be 
talking in front of Mr. Duncan, who, for many years, was my 
Representative in Congress when I lived in Knoxville. So it is 
nice to see you again. It is a pleasure to be here.
    You have heard a lot about the challenges facing the 
system, the congestion, so I am not going to go over that 
ground again, and I did not in my testimony, but rather, I want 
to highlight what I believe are some important principles and 
issues that need to remain in the forefront or not get lost as 
we do with some of the details in the long discussion about 
funding that will certainly ensue.
    I think there are some basic principles that we need to 
remain cognizant of, and I touch on four of these in my 
testimony, and I will just mention three of them and elaborate 
on the fourth one.
    First, it is basic to our system that it is a partnership. 
It is being developed as a partnership between the Federal 
Government, the State government and local government, and this 
works well. It has served us well over many years and many 
decades, so whatever we do in the future, we need to maintain 
that partnership as a central focus of how the program 
progresses. And it is not just a funding thing, it is a real 
partnership. There is more than money behind this.
    Second, the system is really a system. Even though the 
Interstate Highway System is largely completed and, of course, 
will need to be expanded in the future, we cannot lose sight of 
the fact that there is a system. Where there is a system, we 
need to focus on how the system works. It does not work well if 
each piece is off doing its own thing. There has to be some 
kind of a central organizing principle behind it to guide what 
we do and how we find the balance between local, State and 
national needs. So the system aspect is really paramount.
    Third, this may not be the best place to bring this up, but 
I think earmarks have become a problem, and I suspect there are 
as many views on that as there are people in the Congress, but 
I think it may have gone over the tipping point this last time 
around, and I think the level of earmarking is such that it is 
starting to raise many questions around the country and 
threatens to have the public lose faith in the credibility of 
the program.
    Now, I also mention in my remarks some of the reasons why 
earmarks exist besides the critical ones, so a system to try to 
control the earmarks--and I would commend Congress that has 
actually started down this path, and I hope it bears some 
fruit, but that system has to also take care of the root causes 
of why earmarks exist in the first place. If we just treat the 
symptom and do not treat the root causes, we may not be able to 
stave off the bad side of earmarks in the future.
    With the rest of my remarks, I want to focus on the issue 
that Mr. Pisarski raised on information requirements. It is 
pretty fundamental to most enterprises that good system 
decision-making has to be founded upon good performance 
measures and good information and the data to support that, and 
this is certainly true in transportation. The Transportation 
Research Board last month, in fact, published a very short, 
concise document. It is Research Circular E-C109, which, in a 
few pages, lays out very well why we need data, and it has a 
lot of good, concrete examples of how good data helps us to 
make good decisions in transportation.
    So I would like to add this to the record, if I could, to 
make sure you get that.
    Mr. DeFazio. Without objection.
    Mr. Bronzini. OK. And right now, as has already been 
mentioned, the Transport Research Board is having its 86th 
annual meeting across town at Woodley Park. There was a session 
on Monday focused on information needs and trying to understand 
what those needs are in a variety of agencies, public and 
private, and just a few things that were mentioned there, I 
think, are relevant to what we are doing here.
    The CEO of a State department of transportation, quite 
large, said that we have the problem of frailty of decision-
making based on weak data systems. Data collection and 
management are cost-effective. They are not cost drivers.
    From a division manager for another large State DOT, 
assisted monitoring and evaluation is the base upon which 
system development is built. Cutting data programs limits 
decision-making.
    Then from a private sector entity, which I think is maybe 
even more telling, there was a representative of a large 
technology company, which they are not in the transport 
business, but they use transportation, and this is a $65 
billion company in annual revenue, and he said their company 
relies heavily on performance metrics as the basic way that 
they manage the enterprise. And they spend 1 percent of their 
revenue on performance metrics, and of that, they spend 10 
percent of that just on research, just on how to make their 
performance metrics better.
    I think that standard is much higher than what we see 
happening in our own transport system where the output of good 
data is even more important. So the need to measure how the 
system works and to put in place the mechanisms to make that 
happen, I think, should be a major concern of the future 
program development.
    Thank you.
    Mr. DeFazio. OK. Thank you, Dr. Bronzini.
     Dr. Lomax.
    Dr. Lomax. Thank you very much, Mr. Chairman, and Mr. 
Distinguished Member. I appreciate the opportunity to be here 
to talk about the future of transportation.
    Our country's system already faces a number of challenges, 
and those will undoubtedly grow and evolve, but I am optimistic 
that our society can overcome them. Please let me know if I can 
answer any questions today or in the future.
    We have studied urban congestion issues for more than two 
decades, and I think I am safe in saying that congestion is 
going to get worse, especially in the metropolitan regions. 
Moving millions of new travelers and freight, that Alan pointed 
to, to their destinations, and doing that quickly and safely, 
will mean adapting to some new realities, new technologies and 
even new travelers.
    Consider that the current grade-school and college students 
will be the decisionmakers of 2040 and 2050. Their experiences, 
for example, with instant access to information will mean a 
much different set of expectations than you or I grew up with.
    Most of the challenges we face can benefit from a 
combination of two approaches. Technology or infrastructure is 
one, and information or policies is another. I think this is a 
type of niche marketing. There is not any one big program or 
technology that is going to solve the problem. There will be 
many different solutions, and those solutions are going to be 
different in different areas. Larger urban areas may have 
different solutions than smaller ones, suburbs different than 
urban areas, and regions of the same size and with generally 
the same character may choose to make decisions just because 
that is what their citizens want to do. I think that is the 
reality, and I think that is good.
    Our Urban Mobility Report has consistently promoted a broad 
set of strategies to solve congestion problems. These require 
efforts from many groups, not just the agencies, but the 
business community, and the public needs to be involved as 
well. Just broadly, those solutions have been talked about. But 
I sort of characterize one of them as do the small, simple 
things. Time traffic signals. We do not do that as well as we 
can. We do not clear the traffic collisions, or vehicle 
breakdowns as fast as we can, and there are ways to do vital 
road maintenance functions more rapidly with less congestion 
and less time. These are very simple improvements, and they are 
very cost-effective.
    We also need to do more. A solution set of strategies must 
also emphasize adding highways, public transportation service, 
bike lanes, ferries, sidewalks, everything to our system 
because we are going to need that to address the growing 
populations.
    Then information, enforcement and education can play key 
roles in the solutions. Reliable information, enforcement of 
traffic laws that improve safety, and education programs all 
provide elements of improvement and increase the trust between 
the operators and the public.
    There are also substantial benefits to these improvements 
that should not be ignored. Connecting effective strategies to 
those citizens' concerns using reliable information should be a 
key component of any transportation improvement program. 
Transportation projects, after all, are not ultimately about 
faster travel. They are about supporting an economy that 
competes in a global market, supports families and encourages 
innovation, and creates options that allow citizens to improve 
their lives.
    To wrap up, I have a few suggestions on how to translate 
the future situation I have outlined and the challenges we face 
into tangible advice for members of the subcommittee.
    With respect to number one, recognize that some problems 
are regional and interregional, but many of the operating and 
governance structures are not. How do we make these match or 
work better?
    Congress, I think, must recognize that the current system 
of decision-making is based on States or metropolitan regions. 
They examine within their own boundaries for solutions to 
current or future transportation problems. The current Federal 
program reinforces this natural inclination to stop solutions 
at the border, thus resulting in a patchwork of solutions to 
large interregional problems. We already recognize regional 
and, in some cases, national consequences flowing from these, 
and I had an example in my testimony. We should make the 
solutions match these problems more closely.
    Number two, people will react to incentives like price or 
time savings, but we rarely provide them opportunities to do 
so. We have heard about incentives here today. At the same 
time, States and regions have the responsibility to maximize 
the efficiency of the transportation infrastructure. These two 
facts can work together to recapture the unused existing 
capacity through tools that spread demand over longer periods 
of time. Concentrated travel demands are the single worst 
congestion problem in big cities. Transit, congestion pricing, 
carpooling, telecommuting, and many other tools address that 
concentrated travel demand. I think we should be coordinating 
those much better.
    Number three, no one is really paid for eliminating 
congestion. Why is that? It is clear that more aggressive 
congestion reduction approaches exist, combining technology, 
information, policies, regulatory changes, private sector 
partners, public sector agencies. Each element doing what it 
can do best without regard for jurisdictional boundaries or 
turf issues can be successful. The Federal program could 
reinforce these aggressive approaches with support for 
innovation and coordinate the development of monitoring, 
reporting and performance standards.
    Number four, building on what Mike and Alan have said, 
data-driven and results-oriented approaches to problems have 
proven their effectiveness in many fields of government. We 
should expand those in transportation, and this refers to 
analytical processes, monitoring data, communication 
strategies. The report for both improving the operation and for 
improving the ability of the technical folks to communicate 
with the public, the cycle of planning, testing, deployment, 
and evaluation of innovative strategies may turn over much more 
rapidly, not unlike the private sector freight shippers now. 
Congressional support for data collection and analytical 
improvements will be returned in the form of better service, 
improved communication with the public and more reliable 
operations.
    Thank you very much for allowing me to provide some ideas.
    Mr. DeFazio. Thank you, Dr. Lomax.
    I will lead off with a few questions.
    I mentioned to Under Secretary Shane, but also, I think it 
is implied in some of the testimony we have just heard, that we 
have pretty much a stovepipe system. Remember, we talked about 
intermodalism, but that is sort of at interstice, I mean, where 
you are off-loading ships or--you know, we do not really 
integrate the system in a way where we can get to the point of 
doing what I call "least cost transportation planning." What is 
most efficient? What is most effective? How are we going to 
move the things more quickly, more fuel efficiently and with 
less expense to shippers or for individuals?
    I guess I am interested in any ideas any of you have about 
how we would approach that. You know, there are a lot of 
problems. Where does the share come from if you start getting 
into these kinds of partnerships? How would we thoughtfully 
begin to break down some of those barriers and, as I think one 
person said, give more flexibility to the States in these 
issues? How do we do that while we are still meeting the 
concerns over here of the maintenance of existing 
infrastructure, underfunded? Then, you know, we have these 
other competing modes that could complement that.
    Does anybody have any ideas?
    Yes. Go ahead, Doctor.
    Mr. Pisarski. Yes, Mr. Chairman.
    I have thought a lot about the notion of efficiency and 
productivity, and I think the thing we have to be guarded about 
is not to get too excited about the notion of the productivity 
and the efficiency of the system. We need to focus on the 
efficiency of people and on the efficiency of the goods that 
are in movement, and sometimes the people efficiency is more 
important than the system efficiency.
    The efficiency of the guy delivering pizza to your house 
would be much greater if everybody in the neighborhood asked 
for the pizza at exactly the same time, but the fact is he does 
a lot of work so that people can be more efficient, and I think 
that is something that we really need to put into place and 
recognize.
    It is not the system. We want the system to respond 
efficiently, certainly, but it is the efficiency of the public, 
and that is why I raise this point of the value of time of a 
society where people's value of time is $50 an hour. The 
pressures, the willingness to pay a lot of money to save time 
is, I think, going to be critical in the future, and people's 
responsiveness to that will be very important. So we have to 
focus on their efficiency more than simply on, quote/unquote, 
the efficiency of the system.
    Mr. DeFazio. I think it is an excellent, very interesting 
point.
    Just one thing that occurred to me when you were testifying 
earlier, and you were talking about--and I agree with basically 
the value of time and how it can become more and more valuable 
in very busy lives, but there is another side to that.
    In an aging society there may be a new group of people who 
do not have those time pressures who are a very large cohort. 
This is one of my arguments why we maintain a national Amtrak 
system, because I think you might find people choosing that 
option over hectic air travel.
    Mr. Pisarski. One of the things that I talk about in my 
paper is the growth in people with discretionary time and 
discretionary income, and the boomers, the first of them, are 
going to hit 65 in 2010. You could very well see for the next 
25 years a boom in leisure travel, recreational travel and 
tourism. I do do a lot of work on the tourism side on the 
international scene, and there is no question that we are going 
to be seeing very dramatic increases in those opportunities, 
and I mention this national parkway system and, in fact, part 
of that thinking, and the interaction between air travel and 
ground travel particularly will be significant.
    Mr. DeFazio. Anyone else?
    Yes, go ahead. OK. Go ahead, Dr. Bronzini.
    Mr. Bronzini. Yes. Back on the intermodal system question, 
there are just two observations I would like to make. One is 
that--one reason we have all of the stovepipes is because to 
execute a project in a particular mode, it takes some 
concentrated efforts, and historically we have had different 
committees who were the authorizing committees, or who had some 
jurisdiction over those projects, who had a relic from the past 
to some extent, and we keep it around because it works until 
you get projects built.
    Now, to make it intermodal, of course, and to make it work 
better as an interconnective system, there are two things we 
can do. One is to pay some attention to the interconnection 
points and to make sure that we have as much of a contingency 
for that as we do for the pieces themselves, and the other is 
to try to remove any legislative barriers to cross-modal 
thinking and cross-modal projects.
    Mr. DeFazio. In my home State of Oregon, the Governor is 
partnering with Union Pacific to build more sidings to make the 
freight more efficient in the hope of keeping the increase in 
truck traffic on I-5, which has become problematic in terms of 
capacity, down.
    So, are they thinking along the lines of those sorts of 
things as those kinds of partnerships?
    Mr. Bronzini. That is a great example, and also, it brings 
to mind the fact that we have sort of ignored the private 
sector for most of the day, and they are certainly an important 
player. And so finding ways--and some parts of the private 
sector work with government better than others, so it is trying 
to find ways to--so the railroads historically have not been 
big fans of working with government, so this is something new 
for them as well. So finding those examples and showing that 
they can work and removing the impediments to those kinds of 
projects, I think, would be a great idea.
    Mr. DeFazio. OK.
    Dr. Schwieterman, do you have a comment?
    Mr. Schwieterman. I will add to that.
    When the Alameda Corridor was approved, people thought this 
was the beginning of a golden age of private-public 
partnerships, and I think, for Federal leadership, there was a 
window, and there is a window now for Federal leadership to 
really push that mile all around the country--of course, in 
Chicago, with CREATE, that is the whole dynamic--and I think 
the freight railroads are coming around.
    I think there is a great deal of reluctance to working with 
the Federal Government historically because strings are going 
to be attached, and we are going to be viewed as a public 
utility, but I think the game is changing now as they have 
really hit a roadblock with capacity that they can be brought 
to the table, and the Cascade Corridor you mentioned is a good 
example of that, where there, I think, is sort of a shared 
destiny view that is a bit of a breakthrough that we did not 
see 5 years ago.
    Mr. DeFazio. Right. OK, go ahead.
    Dr. Lomax. I might suggest that you think about this in a 
problem-solution mode inasmuch as the solutions in Portland 
came from a problem, and then a group of folks, agencies, 
private sector getting together, that might be the same notion 
for addressing some of the stovepipe issue.
    It may be that you need some sort of incentive program here 
where you require three governors to get together, or five 
metropolitan regions to get together to talk about a problem 
that goes through all of their areas which might not be solved 
by a particular highway or a particular State or a particular 
solution, but it may be that in requiring some broader set of 
regions to get together that not only do you reinforce this 
notion of a national system and regional interconnectedness, 
but you also address some of the stovepipe issues as well.
    Mr. DeFazio. Requiring or incenting might be a little 
gentler way to get there.
    Dr. Lomax. I think that was where I was going.
    Mr. Pisarski. Dr. Lomax and I have worked in a couple of 
States together, and one of the things that we have done that 
could go very much to your question, we recommended, in Georgia 
and Texas particularly, the notion of reduction of hours of 
delay per million dollars invested as the metric for 
metropolitan areas to look at. How many hours of delay you have 
saved with the money you have spent. And what we have suggested 
is that that solution be open to anyone, whatever proposal they 
might have, whether it is a highway or a transit proposal; but 
that is the metric you would base your planning on.
    It seems to me that kind of performance metric, kind of 
opens the door, at least in some sense. In Georgia the State 
has restructured their planning process around that kind of 
thinking.
    Dr. Lomax. And you could add the other elements in--your 
lease cost planning idea, air quality, safety and other 
elements to talk about the productivity of that improvement.
    Mr. DeFazio. Thank you.
    Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. Pisarski, you have sort of an optimistic statement 
about your belief that the money is going to be there to 
finance the improvements; and we, a lot of times, don't hear 
that. We have a lot of concerns about decreasing revenues from 
the gas tax and so forth. But you also, on your last line just 
before your optimistic statement about the economy being good 
enough to pay for everything that we need to do, you have the 
words "more operable problems."
    Do you think that--do you mean that we are going to have 
more of the same types of problems that we have had over the 
last few years, or do you mean that we are going to see newer, 
different kinds of problems in the future, and if so--in other 
words, just elaborate a little bit on that.
    Mr. Pisarski. Thank you, sir. It is an excellent question.
    By "more operable problems," my point was simply that if 
you go back and you look in the 1950's when they were 
addressing America's transportation issues, I would call the 
interstate system Phase I. They addressed the needs of the next 
150 million people that were being added to the 150 million 
that were already here.
    Phase II, today, we need to be thinking about the next 150 
million that will be needed. But adding that number today is 
going to be really a whole lot easier to deal with than it was 
for that society back in 1956. They were growing at twice the 
rate as today. Their resources were far more limited than ours. 
And our technological resources are clearly superior.
    The very big forecasts that they made of popultion and 
travel growth was growing, which scared everybody, were wrong--
low, dramatically wrong, low. The system produced much more 
than they had planned. And I think in the future we have a 
capacity to address the problems in a somewhat more 
straightforward way than I think they were able to.
    The problems are going to be more of the same in some 
respects, but I think bigger. The focus of the metro areas is 
going to be circumferential; 46 percent of the commuting flows 
today is suburb to suburb. Two-thirds of the growth is suburb 
to suburb. What you are seeing now are dramatic flows, live in 
one suburb and work in another suburb of another metropolitan 
area.
    One of the great descriptions somebody said, I think 
Fredericksburg south of here is a great example: Work in one 
metropolitan area, shop in another metropolitan area, and don't 
live in either one. And I think that is--in effect, where I 
think we are going to be going.
    So we are going to have to recognize that in getting people 
involved in the workforce and reaching out to them in the 
transportation system is going to be critical. We are not going 
to have the labor force that we--I guess I would say, in 
summary, that commuting in America, if you look at the baby 
boom, we might have thought of it as, isn't it wonderful that 
we had the jobs that provided the jobs to those baby boomers 
when we could have been talking about unemployment instead of 
congestion.
    Mr. Duncan. It was a very interesting slide you had about 
the 28 percent of workers who are crossing county lines and 
that it is more so among the younger workers because the 
younger people are having to move further out. That is 
something that we really--that is important that we take that 
into consideration in everything that we do.
    Mr. Pisarski. One positive point that hasn't been mentioned 
here: As people reach over 55, they tend to work at home; they 
tend to walk to work, they tend to shift away from their past 
driving habits. Also, because of the lack of skilled workers, I 
think you are going to see dramatic amounts of flexibility on 
the part of employers.
    You are going to be seeing, Well, when can you work? Yes, 
Tuesdays and Thursdays.
    You want to come at 10 o'clock? That is fine.
    We are going to see a lot more flexibility out of employers 
simply because they can't get at those skilled workers. That 
will be one of the positive forces that we will see.
    Mr. Duncan. Let me move to some of the others.
    Professor Schwieterman, I was pleased that your testimony 
was about all of the various intermodal activities; I think the 
staff and members of this committee were among the first ones 
to really recognize that and promote and advocate the need for 
intermodal systems or that type of thinking; and, in fact, Mr. 
Schenendorf was on the forefront of that.
    But you said we need to leverage more private capital. How 
do you think is the best way we can do that? You mentioned toll 
roads, but they are extremely unpopular where they don't exist 
today. You mentioned private activity bonds; and, you know, I 
like that, private activity bonds, but they are very, very 
little in use so far. How do we go about that?
    Mr. Schwieterman. To the extent to which we are now 
embracing the idea, the congestion pricing needs to enter the 
mix, and the highway system opens up a lot of doors thinking 
creatively about point partnerships, private ways to use toll 
financing for major improvements that can support private- 
public investments in highways. And I don't completely agree 
with your proposition that toll roads will remain extremely 
unpopular once the public adequately sees that the other option 
is the status quo, which is endless traffic congestion.
    In Illinois, we are looking at the privatization of the 
tollway system. The tri-State tollway has been getting 
discussion. Controversial, yes, but it is a tidal wave of 
private capital that we are prepared to tap.
    I think the freight railroads--this year alone, CSX has 
doubled their capital with a little inducement from the Federal 
Government to help really make mainline corridors equivalent to 
interstate highways for intercity freight. I think we could see 
a massive increase in freight investment by the railroads if 
the government provides a platform to ensure that they are 
going to do their part to help eliminate some of the 
bottlenecks as well.
    Mr. Duncan. You know what has happened over the last many 
years? We at the Federal, State, and local levels, we have 
taken so much land off of the tax rolls and that--and we have 
done that at the same time that the schools and all of the--
every department and agency of the government at all levels is 
demanding more and more money. So we have raised the sales 
taxes about as high as the public will stand for, and income 
taxes, too, and so now all of the States are going heavily into 
gambling--you know, the lotteries and so forth, but that is 
going to hit its limit at some point.
    But I will tell you that in my area, we have never had any 
toll roads. I can tell you that would be one of the most 
unpopular things I could ever advocate. I will just tell you, I 
wouldn't want to do it.
    Dr. Bronzini, what years did you live in Knoxville?
    Mr. Bronzini. I lived there between 1978 to 1986 and 1990 
to 1999.
    Mr. Duncan. Why did you move and when are you moving back?
    Mr. Bronzini. In 3-1/2 years.
    Mr. Duncan. Well, I will tell you Fortune Magazine about 7 
years ago said the Knoxville metropolitan area had become the 
most popular place to move to in the whole country, based on 
the number moving in in relation to the most fewest moving out. 
And it said that Las Vegas and a lot of other places had a lot 
more people moving in, but they had large numbers leaving; and 
we had large numbers moving in and nobody leaving, hardly. But 
we will be glad to have you back sometime.
    I also noticed that you got your Ph.D. At Penn State. If 
you move back, you might not want to mention that too often 
especially after the bowl game.
    Mr. Bronzini. It happened twice, too.
    Mr. Duncan. Let me ask you this: You mentioned how 
important the research dollars are, and you say that we are not 
doing enough at the Federal level. And most of us would agree 
on that, that we are--they are doing very little at the State 
levels and zero at the local levels.
    Do you think that might be because at the local level, you 
know, they are not worried about things too far in the future 
or too much research? We don't see the potholes in Peoria as we 
sit here, but the local government, people, and their citizens 
drive over those potholes every day and they want something 
done right then.
    Mr. Bronzini. That is a large part of it. I think as you go 
from the local to the Federal level, you see an increasing 
ability to focus on the longer-term solutions. The States have 
some ability to do this.
    The locals, particularly in transportation where their 
responsibility tends to be pretty focused, they have a hard 
time getting beyond today's needs given the limited access to 
revenue in many cases. In many cases, they are spending this 
off of sales taxes or local income taxes depending on where 
they are. So they have a hard time looking to the long term for 
the program where they often are the recipient of grants and 
are providing matching funds for longer-term things.
    The States have some more ability to do this, and they do 
have a partnership with the Federal Government on research 
activities. But I think, for the most part, most States tend to 
underinvest. I believe they underinvest on research on 
transportation, and they look to the Federal Government to take 
care of the research aspect of the program.
    Research money has gone down over time and even research 
money has been earmarked. So it makes it hard to have a 
coherent research programs. So as long as--the natural order of 
things, the Federal Government, because of the leadership role, 
is able to take the longer-term view.
    Mr. Duncan. You sound a little bit like President Bush last 
night talking about earmarks.
    Let me ask you this: Was it you who said that our system is 
not really a system? Somebody said that. Or was that one of 
the--you said that? I just was--------
    Mr. Bronzini. I think that might have been you, Alan. I 
said it is a system.
    Mr. Duncan. All right.
    Well, Dr. Lomax, you talked about incentives, and that is 
something that I think--that is a direction I would like to 
head in. And, actually, Mr. Pisarski got into the note I made 
of that.
    I was going to ask you about the possibility of this 
doubling of the population over 65 and how much opportunity you 
see there for people who may have more flexibility, you know, 
in their drive times and not have to drive necessarily in the 
peak, most congested times.
    Do you see a lot of opportunity in that direction, or do 
you think we should start charging people in some way to drive 
in the more congested time period? What do you see in that 
regard?
    Dr. Lomax. I think I agree with almost everything in there, 
one way or another. There is certainly a role for incentives. I 
think when--your question about the older workers, I think they 
are maybe only one of the groups that has an incentive or has a 
way to adjust their travel time.
    Alan talked about the notion of very experienced workers 
being very desirable. I think when you see tight labor markets, 
you see employers that are more willing to pay--pay higher 
salaries--or adjust to some sort of flexible work schedule.
    An extreme example would be Roger Clemens with the Houston 
Astros; show up on the day he pitches and take the rest of the 
time off. I don't think I would have access to that schedule.
    But the notion of being able to create a flexible work 
environment that works for both the commuter and the employer, 
when you see what has happened around the country with 
businesses who have tried this, they find their bottom-line 
benefits. Their workers are more productive, they get to work 
on time, they have less stress, there is less turnover. So they 
have less money going into workforce development.
    So there is a whole range of bottom-line benefits to the 
employers. It is not that we are asking them to do public good 
just for its own sake. They see a real bottom-line effect.
    And then I think when you talk about charging, I think 
there is a role for that if there is a service component that 
goes along with it. I think people have been shown to be 
willing to pay more to drive on some of these high occupancy 
toll lanes in return for the ability to drive the speed limit 
to get to where they want to go.
    The typical research outcomes of these are that not 
everybody does this every day. They do this when they have a 
value of time that exceeds the toll that they are going to pay. 
So if they are late to get to the airport or a meeting or their 
son's or daughter's sporting event or cultural event, they are 
willing to pay that. Other days, when getting home 10 minutes 
early means you have to start mowing the yard 10 minutes 
earlier, you are willing to sit in traffic 20 minutes longer.
    We haven't created that many options for people. You can 
sit in traffic or not go in many places. Those are your two 
options. And I think there are a whole lot more options that we 
can explore.
    Mr. Duncan. I can't resist the temptation to tell you that 
I spent five and a half seasons as batboy for the Knoxville 
Smokies baseball team, and my freshman year at the University 
of Tennessee, I was the public address announcer. So I love 
baseball analogies or examples. The only thing I really can't 
relate to is, back when I traveled with the baseball team, we 
got $22 a week in meal money; and now somebody like Roger 
Clemens probably makes $22,000 a minute, which I think is 
totally out of whack.
    At any rate, thank you very much. All of your testimonies 
and answers have been very, very good and very informative, and 
I appreciate your being here very much.
    Mr. DeFazio. I thank the gentleman for those questions.
    Two last questions that hopefully can be answered quickly. 
I think three of you, perhaps all of you, referred to how 
pathetic the data is out there. I guess the question is, what 
can we do about that? And if you can briefly answer that.
    Mr. Pisarski. In the SAFETEA LU legislation, the Department 
was requested to conduct a study of national transportation 
date needs and, so far, hasn't done so. The money has not been 
forthcoming to make that happen, and I think obviously one of 
the things that somebody has to be asked is, what happened to 
that. A study was done by my data section at TRB where we 
volunteered to do it because there was no money forthcoming.
    Mr. DeFazio. Thank you.
    Mr. Pisarski. That is step one. The department needs to 
identify the requirements here, and they can be laid out very 
readily. It is going to take some money, but compared to the 
cost of ignorance, it is very inexpensive.
    Mr. DeFazio. OK. We will follow up on that.
    Does anybody else want to quickly add to that?
    Dr. Lomax.
    Dr. Lomax. I will very quickly say, the important notion is 
outlines of data as an asset. It is not that we are suggesting 
that data get collected for its own sake; it is that we have 
got to improve decisions. In order to do that, it takes time. 
It is takes effort. It takes somebody paying attention to it, 
but it also takes somebody going back to the data folks and 
helping them understand they are creating information for 
policies and operations.
    And so connecting up the data folks with the people who use 
it I think is a real key in the good data programs that we have 
seen.
    Mr. DeFazio. OK. Thank you.
    Mr. Bronzini. I would like to add, this is a near-term 
issue. Some data sets we have had for a long time are 
disappearing because of the funding slowdown. So we should 
either decide that that data is needed and therefore we better 
save it, or if it is meeting a need, such as one example is 
large vehicles, vehicle uses, the only data that we have, if we 
would need data use vehicles, we should pose quickly what is 
going to take its place.
    Mr. DeFazio. Then just this last one, which I was going to 
forgo, but I am easily provoked.
    Professor Schwieterman was waxing about the Indiana and the 
Chicago model and that--I guess I want to get something out 
again for a quick response, because I don't want to belabor 
this, and this is the subject of a next hearing.
    On private-public partnerships you mentioned the toll road 
in Illinois. I guess I think we need to--and I will put out for 
comment, enter very cautiously into privatization agreements 
because they are not really public-private.
    When you cede control for 75 years, you sign noncompete 
agreements and a whole host of other things, and you don't, 
unlike the State of Virginia, have the right of recapture, 
private sharing or anything else. What you are dealing with is 
existing infrastructure which is low risk, no risk; and you get 
a certain amount of money up front versus a green field, new 
construction partnerships as part of the funding for massive 
projects, those sorts of things, or even what we envisioned in 
SAFETEA-LU, which is, if you had capacity, you could do tolling 
and that--and get private investment recapture.
    I just wonder, I don't know that Professor Schwieterman 
would share my concerns. I just note with the State of Indiana, 
Macquarie puts up 10 percent, great, they put up 10 percent. 
The State of Indiana could have put up 10 percent in G.O. bonds 
and then got partners and had revenue flow from year 25, when 
the whole thing is totally paid for and profit is already 
gained, to year 75 which it will now forgo. It has foreclosed 
that option.
    And I am also concerned about the noncompete agreements.
    There are two ways to meet your congestion standards: you 
can enhance capacity, or you can charge them enough to drive 
them off the route. I think those are problematic to enter into 
with private entities.
    Mr. Pisarski. I would agree. I wrote a paper on the Indiana 
and the Chicago arrangements, and my first question was, what 
mayor 50 years from now is going to look back in Chicago and 
say what a great move that was. I can see it coming in New 
Jersey; I can see it coming in Pennsylvania. And at least in 
Indiana, the notion is, you are going to increase the total 
transportation assets in the State; and the greatest concern on 
my part is the diversion of that money into other areas--
basically paying your operating cost with a capital loan.
    Mr. Schwieterman. All of those trappings are well stated, 
and you look at British Rail privatization, all of the problems 
we had there.
    But I think moving aggressively to understand how we can 
make that mechanism work, my fear is while the proceeds won't 
go towards transportation infrastructure, it will go towards 
pensions. And that is, I think, where the new transportation 
bill can show real leadership to sort of lay out how it can set 
the ground rules of these things. We can tap into that global 
capital, get some things done while protecting the need for 
major transportation investment from the hungry hands of other 
government agencies.
    Mr. DeFazio. Anybody else?
    OK, great.
    Well, again, thank you. I really appreciate it. Great 
testimony. Thank you for your work in the field. Thank you for 
your patience. Sorry that it took so long.
    The committee is now adjourned.
    [Whereupon, at 2:35 p.m., the subcommittee was adjourned.]
    [GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]
    

</pre></body></html>
